INDEX TO APPENDIX
Page No.
A.

Order Denying Motion for Certificate of Appealability
Ninth Circuit Court of Appeals .................................................................... 001
Filed February 10, 2021

B.

Order Denying Petition for Writ of Habeas Corpus
United States District Court, District of Nevada ........................................ 002
Filed July 20, 2020

C.

Order
United States District Court, District of Nevada ........................................ 018
Filed December 21. 2018

D.

Order of Affirmance
Nevada Supreme Court ................................................................................ 024
Filed November 14, 2017

E.

First Amended Petition for Writ of Habeas Corpus
United States District Court, District of Nevada ........................................ 026
Filed March 16, 2015

F.

Order of Affirmance
Nevada Supreme Court ................................................................................ 049
Filed October 17, 2013

G.

Order of Affirmance
Nevada Supreme Court ................................................................................ 052
Filed July 23, 2009

H.

Judgment of Conviction
Eighth Judicial District Court ...................................................................... 057
Filed august 15, 2007

Case: 20-16547, 02/10/2021, ID: 11999187, DktEntry: 4, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 10 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

REGINALD FRANKLIN,
Petitioner-Appellant,
v.

No.

20-16547

D.C. No. 3:13-cv-00613-MMD-WGC
District of Nevada,
Reno

ROBERT LEGRAND, Warden;
ORDER
ATTORNEY GENERAL FOR THE STATE
OF NEVADA,
Respondents-Appellees.
Before:

McKEOWN and BUMATAY, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 1 of 16
1
2
3

UNITED STATES DISTRICT COURT

4

DISTRICT OF NEVADA

5

***

6

REGINALD FRANKLIN,

Case No. 3:13-cv-00613-MMD-WGC
Petitioner,

7

ORDER

v.
8
9

ROBERT LEGRAND, et al.,
Respondents.

10
11
12

I.

SUMMARY

13

Petitioner Reginald Franklin filed a petition for writ of habeas corpus under 28

14

U.S.C. § 2254. This matter is before the Court for adjudication on the merits of Franklin’s

15

amended petition (“Amended Petition”). (ECF No. 20.) For the reasons discussed below,

16

this Court denies both the Amended Petition and a certificate of appealability.

17

II.

BACKGROUND

18

Franklin’s convictions are the result of events that occurred in Clark County,

19

Nevada on or between April 10, 2003, and May 31, 2003. (ECF No. 25-3.) L.A., who

20

was twelve years old, met Franklin, who identified himself as “Tony,” on a telephone

21

chat line. (ECF No. 26 at 17, 19.) L.A. and Franklin spoke on the telephone numerous

22

times. (Id. at 20.) At first, the conversations were friendly in nature, but they “got more

23

sexual . . . the more [they] spoke.” (Id.) L.A. told Franklin that he was thirteen years old,

24

as his birthday was coming up, and Franklin indicated that “[h]e didn’t care” about L.A.’s

25

age. (Id.) The first time Franklin visited L.A. in person, they talked for a while, and then

26

Franklin left. (Id. at 21.) Following this meeting, Franklin told L.A. in a telephone call that

27

“he was happy with what he saw” and that “he would like to see [L.A.] again.” (Id.) The

28

second time Franklin met L.A. in person, Franklin kissed, touched, undressed, and then

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 2 of 16
1

anally penetrated L.A. (Id. at 22-23.) A few weeks later, Franklin came over for a third

2

time, and L.A. and Franklin performed oral sex on each other before anally penetrating

3

each other. (Id. at 24-26.) L.A. later told Patty Williams, a friend of L.A.’s mother, that he

4

was gay and that he had been engaging in sexual relationships with adult men. (ECF

5

No. 26-2 at 16-18.) Williams then told L.A.’s mother, Barbara Blake, about these sexual

6

relationships, and Blake informed law enforcement. (ECF No. 27 at 8-10.)

7

Following a jury trial, Franklin was found guilty of five counts of lewdness with a

8

child under the age of fourteen. (ECF No. 28-1.) Franklin was sentenced to five prison

9

terms of 10 years to life, three of which were ordered to run consecutively. (ECF No. 28-

10

6.) Franklin appealed, and the Nevada Supreme Court affirmed on July 23, 2009. (ECF

11

No. 29-5.) Remittitur issued on August 18, 2009. (ECF No. 29-6.)

12

Franklin filed a pro se state habeas petition and a counseled supplemental

13

petition on July 30, 2010, and February 22, 2011, respectively. (ECF Nos. 30, 32-5.)

14

The state district court denied Franklin’s petition on April 30, 2012. (ECF No. 32-12.)

15

Franklin appealed, and the Nevada Supreme Court affirmed on October 17, 2013. (ECF

16

No. 32-23.) Remittitur issued on November 14, 2013. (ECF No. 32-24.)

17

Franklin filed a pro se federal habeas petition and a counseled Amended Petition

18

on June 10, 2014, and March 16, 2015, respectively. (ECF Nos. 9, 20.) Respondents

19

moved to dismiss Franklin’s Amended Petition on September 11, 2015. (ECF No. 36.)

20

This Court granted the motion in part. (ECF No. 43.) Specifically, this Court determined

21

that Grounds 2(c), 2(d), 3(a), and 3(b) were unexhausted. (Id. at 7.) Thereafter, Franklin

22

moved to stay and abey the proceedings. (ECF No. 44.) This Court granted the motion,

23

administratively closing this action. (ECF No. 46.)

24

Franklin filed a second pro se state habeas petition on August 31, 2016. (ECF

25

No. 50-1.) The state district court denied the petition on January 9, 2017, finding that

26

Franklin’s claims were procedurally time barred. (ECF No. 50-4.) Franklin appealed, and

27

the Nevada Court of Appeals affirmed on November 14, 2017, finding that Franklin’s

28

petition was untimely and successive. (ECF No. 50-7.) Remittitur issued on December
2

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 3 of 16
1

12, 2017. (ECF No. 50-8.)

2

On January 26, 2018, Franklin moved to reopen this action, and this Court

3

granted the request. (ECF Nos. 49, 51.) Respondents renewed their motion to dismiss

4

on June 22, 2018. (ECF No. 54.) This Court granted the motion, dismissing Grounds

5

2(c), 2(d), 3(a), and 3(b) as procedurally defaulted. (ECF No. 63.) Respondents

6

answered the remaining claims in the Amended Petition on April 5, 2019. (ECF No. 66.)

7

Franklin replied on May 20, 2019. (ECF No. 68.)
In his remaining grounds for relief, Franklin alleges the following violations of his

8
9

federal constitutional rights:

10
1.
11
12

2a.

13

2b.

The state district court failed to give—and the State failed to
request—a limiting instruction prior to receiving testimony of
previous bad acts.
His trial counsel failed to impeach L.A.’s testimony by asking
him to describe identifying marks on Franklin’s body.
His trial counsel failed to call L.A.’s stepfather’s roommate to
further attack L.A.’s credibility.

14
15

(ECF No. 20 at 11-13.)

16

III.

LEGAL STANDARD

17

28 U.S.C. § 2254(d) sets forth the standard of review generally applicable in

18

habeas corpus cases under the Antiterrorism and Effective Death Penalty Act

19

(“AEDPA”):

20
21
22

An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect
to any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim --

23
24

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or

25
26

(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.

27
28

A state court decision is contrary to clearly established Supreme Court precedent, within
3

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 4 of 16
1

the meaning of 28 U.S.C. § 2254, “if the state court applies a rule that contradicts the

2

governing law set forth in [the Supreme Court’s] cases” or “if the state court confronts a

3

set of facts that are materially indistinguishable from a decision of [the Supreme] Court.”

4

Lockyer v. Andrade, 538 U.S. 63, 73 (2003) (quoting Williams v. Taylor, 529 U.S. 362,

5

405-06 (2000), and citing Bell v. Cone, 535 U.S. 685, 694 (2002)). A state court decision

6

is an unreasonable application of clearly established Supreme Court precedent within

7

the meaning of 28 U.S.C. § 2254(d) “if the state court identifies the correct governing

8

legal principle from [the Supreme] Court’s decisions but unreasonably applies that

9

principle to the facts of the prisoner’s case.” Id. at 75 (quoting Williams, 529 U.S. at 413).

10

“The ‘unreasonable application’ clause requires the state court decision to be more than

11

incorrect or erroneous. The state court’s application of clearly established law must be

12

objectively unreasonable.” Id. (quoting Williams, 529 U.S. at 409-10) (internal citation

13

omitted).

14

The Supreme Court has instructed that “[a] state court’s determination that a

15

claim lacks merit precludes federal habeas relief so long as ‘fairminded jurists could

16

disagree’ on the correctness of the state court’s decision.” Harrington v. Richter, 562

17

U.S. 86, 101 (2011) (citing Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). The

18

Supreme Court has stated “that even a strong case for relief does not mean the state

19

court’s contrary conclusion was unreasonable.” Id. at 102 (citing Lockyer, 538 U.S. at

20

75); see also Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (describing the standard as

21

a “difficult to meet” and “highly deferential standard for evaluating state-court rulings,

22

which demands that state-court decisions be given the benefit of the doubt” (internal

23

quotation marks and citations omitted)).

24

IV.

DISCUSSION

25

A.

Ground 1

26

In Ground 1, Franklin alleges that his federal constitutional rights were violated

27

when the state district court failed to give—or the State failed to request—a limiting

28
4

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 5 of 16
1

instruction prior to receiving testimony of previous bad acts. (ECF No. 20 at 11.) 1 In

2

Franklin’s appeal of his judgment of conviction, the Nevada Supreme Court held:

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Franklin contends that the district court erred by failing to give a limiting
instruction prior to the admission of testimony of prior bad acts. This court
has stated that when admitting evidence of prior bad acts “a limiting
instruction should be given both at the time evidence of the uncharged bad
act is admitted and in the trial court’s final charge to the jury.” Tavares v.
State, 117 Nev. 725, 733, 30 P.3d 1128, 1133 (2001), holding modified by
McLellan v. State, 124 Nev. ___, ___, 182 P.3d 106, 111 (2008) (modifying
Tavares to allow a defendant to waive the limiting instruction). The
prosecution bears the burden of requesting a limiting instruction at the time
of admittance, although if the prosecution fails to do so, the court should
raise the issue sua sponte. Id. at 731, 30 P.3d at 1132. The purpose of
requiring a limiting instruction at the time of admittance, and again before
deliberation, is to reinforce the purpose for which the evidence is properly
admitted and prevent the jury from considering the evidence for an
impermissible purpose, such as evidence of bad character and that the
accused acted in conformity therewith on the date in question. See Rhymes
v. State, 121 Nev. 17, 23, 107 P.3d 1278, 1282 (2005). The district court’s
failure to give a limiting instruction prior to the admission of bad act evidence
will be deemed harmless unless the error “had [a] substantial and injurious
effect or influence in determining the jury’s verdict.” Tavares, 117 Nev. at
732, 90 P.3d at 1132 (quoting Kotteakos v. United States, 328 U.S. 750,
775 (1946)).
In the present case, the State produced a witness who testified that Franklin
had communicated with him online when the witness was thirteen years old,
had picked him up from school, and participated in sexual activity with him.
Franklin had entered into a plea agreement regarding that incident.
[Footnote 1: This Court previously concluded that the district court erred by
initially determining that this evidence was inadmissible. We held that the
evidence was relevant because it demonstrated Franklin’s motive and intent
in contacting the victim in the present case. State v. District Court (Franklin),
Docket No. 46253 (Order Granting Petition in Part and Denying in Part, July
7, 2006).] The district court did not instruct the jury prior to the testimony,
but did instruct on the use of the evidence during its final charge to the jury.
This court presumes that the jury followed the district court’s orders and
instructions. Leonard v. State, 117 Nev. 53, 66, 17 P.3d 397, 405 (2001).
The district court erred in failing to issue a limiting instruction prior to the
testimony regarding Franklin’s prior bad act. However, given the evidence
presented that supported Franklin’s conviction, we conclude that the error
was harmless. The victim testified that he began communicating with
Franklin on a group phone line just prior to his thirteenth birthday, and that
he informed Franklin of his age and Franklin did not express hesitation with
continuing the relationship. The victim further testified to two separate
incidents involving several sexual acts. The victim’s mother and family

26
27
28

1This

Court previously determined that Franklin “has framed [this ground] as an
issue of federal law” and stated that “[w]hether the Supreme Court of the United States
has clearly established what federal law is a question on the merits that respondents will
need to address in an answer.” (ECF No. 43 at 7.)
5

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 6 of 16
1

friend testified that the victim confided to them regarding the sexual
encounters.

2
3

(ECF No. 29-5 at 2-4.) The Nevada Supreme Court’s rejection of Franklin’s claim was

4

neither contrary to nor an unreasonable application of clearly established law as

5

determined by the United States Supreme Court.

6

Before Franklin’s trial, the State moved “to admit evidence of other acts.” (ECF

7

No. 22-3.) The State explained that it had charged Franklin with sexual assault with a

8

minor, lewdness with a child, statutory sexual seduction, and solicitation of a minor. (Id.

9

at 3.) The State wished to introduce evidence showing that, in addition to the acts

10

committed against L.A., Franklin “ha[d] committed similar acts in the past” with another

11

individual, M.M., in Texas. (Id. at 6.) The state district court denied the motion, finding

12

that “the remoteness alone would suggest these are perhaps not part of the scheme”

13

and concluding that “the prejudicial value outweighs the probative value.” (ECF No. 23-

14

4 at 16; see also ECF No. 23-5.) The State filed a writ of mandamus, and the Nevada

15

Supreme Court “conclude[d] that evidence of Reginald Franklin’s prior plea agreement

16

in Texas should have been admitted.” (ECF No. 67-1 at 2.) Thereafter, before the

17

commencement of Franklin’s trial, the State dropped the sexual assault, statutory sexual

18

seduction, and solicitation of a minor charges, instead charging Franklin only with seven

19

counts of lewdness with a child under the age of fourteen. (ECF No. 25-3.)

20

M.M. testified at Franklin’s trial that he met Franklin in 1997 in an online chat

21

room when M.M. was thirteen years old. (ECF No. 27-1 at 8-9.) Franklin and M.M.

22

communicated by online message, email, and telephone, and their conversations

23

eventually turned sexual. (Id. at 9-10.) After communicating for a while, Franklin told

24

M.M. that he was going to be visiting Houston, Texas, where M.M. resided, to visit family.

25

(Id.) M.M. initially informed Franklin that he was twenty years old, but before Franklin

26

went to Texas, M.M. informed him that he was only thirteen years old, and Franklin

27

“didn’t have a problem with it.” (Id. at 10, 13.) When Franklin arrived in Texas, he picked

28

up M.M. from school and took him to a restaurant. (Id. at 10.) Franklin then took M.M. to
6

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 7 of 16
1

Franklin’s cousin’s residence, and after watching television for a while, Franklin kissed

2

and touched M.M. (Id. at 11.) Franklin then took M.M. into a bedroom, performed oral

3

sex on M.M., had M.M. perform oral sex on him, and then anally penetrated M.M. (Id.)2

4

Following this encounter, Franklin attempted to communicate with M.M., but M.M. did

5

not respond. (Id. at 12.) M.M. eventually told his mother what had transpired with

6

Franklin, and M.M.’s mother contacted law enforcement. (Id.)

7

Nevada law requires that the State “request that the jury be instructed on the

8

limited use of prior bad act evidence” and “when the [State] fails to request the

9

instruction, the district court should raise the issue sua sponte.” Tavares v. State, 30

10

P.3d 1128, 1132 (Nev. 2001). Indeed, “the trial court should give the jury a specific

11

instruction explaining the purposes for which the evidence is admitted immediately prior

12

to its admission and should give a general instruction at the end of trial reminding the

13

jurors that certain evidence may be used only for limited purposes.” Id. at 733, 30 P.3d

14

at 1133. The state district court failed to give—and the State failed to request—a limiting

15

instruction prior to M.M.’s testimony. (See ECF No. 27-1 at 8.) As such, the Nevada

16

Supreme Court, the final arbiter of Nevada law, reasonably determined that the failure

17

to give a limiting instruction was an error of Nevada state law.

18

However, importantly, the lack of a limiting instruction under Nevada state law

19

has not been clearly established as being a constitutional issue. See Holley v.

20

Yarborough, 568 F.3d 1091, 1101 (9th Cir. 2009) (explaining that “[s]imple errors of state

21

law do not warrant federal habeas relief”); see also Tavares, 30 P.3d at 1132 (“[T]he

22

failure to give a limiting instruction on the use of uncharged bad act evidence is a

23

nonconstitutional error.”). Therefore, this Court only considers whether the error was so

24

prejudicial that it rendered Franklin’s trial so fundamentally unfair as to violate due

25

process. Estelle v. McGuire, 502 U.S. 62, 70 (1991); Jammal v. Van de Kamp, 926 F.2d

26

918, 919-20 (9th Cir. 1991) (“The issue for us, always, is whether the state proceedings

27
28

2At

this time, M.M. had just recently turned fourteen years old. (ECF No. 27-1 at

9.)
7

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 8 of 16
1

satisfied due process; the presence or absence of a state law violation is largely beside

2

the point.”).

3

Although the jury was not given a limiting instruction prior to M.M.’s testimony,

4

the following general instruction was given at the end of Franklin’s trial: “Evidence which

5

tends to show that the defendant committed offenses other than that for which he is on

6

trial, if believed, was not received and may not be considered by you to prove that he is

7

a person of bad character or to prove that he has a disposition to commit crimes.” (ECF

8

No. 28 at 11.) Instead, “[s]uch evidence was received and may be considered by you

9

only for the limited purpose of proving the defendant’s intent and/or motive. You must

10

weigh this evidence in the same manner as you do all other evidence in the case.” (Id.)

11

Further, the limited use of M.M.’s testimony was also mentioned by the State and

12

by Franklin’s trial counsel during opening statements and closing arguments. First,

13

during the State’s opening statement, it commented, “one of the things you will be able

14

to look at to determine the motivation . . . and the intent of [Franklin] in . . . contacting

15

[L.A.] . . . is the motives . . . and the intentions were the very same that he had back in

16

1997 in Houston, Texas.” (ECF No. 26 at 14.) Second, Franklin’s trial counsel stated

17

during opening statement that “[w]e are not here to try what happened in Texas” and

18

that the State only brought in M.M. because it “wants you to believe because there was

19

something maybe similar that happened in Texas, you should somehow use that as

20

evidence in this case to convict Mr. Franklin of what happened in 2003.” (Id. at 16.)

21

Third, Franklin’s trial counsel argued in closing argument that the State “say[s], well, it

22

had to have happened this time, because Mr. Franklin was charged with this incident

23

back in Texas 10 years ago,” but “you have an instruction that say[s], just because you

24

may think something [may] have happened in Texas, fine if you believe that happened,

25

that is great. You cannot use that to convict Mr. Franklin in this case.” (ECF No. 28-3 at

26

16-17.)

27

Finally, Franklin called his previous counsel who represented him regarding the

28

charges stemming from the Texas case. (ECF No. 27-1 at 19.) Franklin’s previous
8

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 9 of 16
1

counsel testified that Franklin pleaded guilty to felony injury to a child in the second

2

degree and that Franklin’s adjudication was deferred, meaning that Franklin was on

3

probation for ten years, and after that ten years, “the case was to be dismissed.” (Id. at

4

20.)

5

Because an appropriate limiting instruction was given at the end of Franklin’s trial,

6

the limited evidentiary nature of M.M.’s testimony was discussed by the State and

7

Franklin’s trial counsel during opening statements and closing arguments, and the jury

8

was aware that Franklin had already been adjudicated regarding his actions against

9

M.M.—thereby negating any contention that the jury was under the false impression that

10

it was also deciding Franklin’s guilt for this past conduct—this Court cannot conclude

11

that the failure to give a limiting instruction before M.M.’s testimony rendered Franklin’s

12

trial so fundamentally unfair as to violate due process. Estelle, 502 U.S. at 70; Jammal,

13

926 F.2d at 919-20. As the Nevada Supreme Court reasonably noted, the purpose of a

14

limiting instruction is to “prevent the jury from considering the evidence for an

15

impermissible purpose.” (ECF No. 29-5 at 3.) It can be concluded that this purpose was

16

fulfilled by the limiting instruction given before deliberations, especially since jurors are

17

presumed to follow the instructions that they are given. United States v. Olano, 507 U.S.

18

725, 740 (1993). Accordingly, because the Nevada Supreme Court’s denial of Franklin’s

19

claim was neither contrary to nor an unreasonable application of clearly established law

20

as determined by the United States Supreme Court, Franklin is denied federal habeas

21

relief for Ground 1.

22

B.

Ground 2

23

In Ground 2, Franklin alleges two claims that his trial counsel was ineffective.

24

(See ECF No. 20 at 13-14.) In Strickland, the Supreme Court propounded a two-prong

25

test for analysis of claims of ineffective assistance of counsel requiring the petitioner to

26

demonstrate (1) that the attorney’s “representation fell below an objective standard of

27

reasonableness,” and (2) that the attorney’s deficient performance prejudiced the

28

defendant such that “there is a reasonable probability that, but for counsel’s
9

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 10 of 16
1

unprofessional errors, the result of the proceeding would have been different.” Strickland

2

v. Washington, 466 U.S. 668, 688, 694 (1984). A court considering a claim of ineffective

3

assistance of counsel must apply a “strong presumption that counsel’s conduct falls

4

within the wide range of reasonable professional assistance.” Id. at 689. The petitioner’s

5

burden is to show “that counsel made errors so serious that counsel was not functioning

6

as the ‘counsel’ guaranteed the defendant by the Sixth Amendment.” Id. at 687.

7

Additionally, to establish prejudice under Strickland, it is not enough for the habeas

8

petitioner “to show that the errors had some conceivable effect on the outcome of the

9

proceeding.” Id. at 693. Rather, the errors must be “so serious as to deprive the

10

defendant of a fair trial, a trial whose result is reliable.” Id. at 687.

11

Where a state district court previously adjudicated the claim of ineffective

12

assistance of counsel under Strickland, establishing that the decision was unreasonable

13

is especially difficult. See Harrington, 562 U.S. at 104–05. In Harrington, the United

14

States Supreme Court clarified that Strickland and § 2254(d) are each highly deferential,

15

and when the two apply in tandem, review is doubly so. Id. at 105; see also Cheney v.

16

Washington, 614 F.3d 987, 995 (9th Cir. 2010) (internal quotation marks omitted)

17

(“When a federal court reviews a state court’s Strickland determination under AEDPA,

18

both AEDPA and Strickland’s deferential standards apply; hence, the Supreme Court’s

19

description of the standard as doubly deferential.”). The Supreme Court further clarified

20

that, “[w]hen § 2254(d) applies, the question is not whether counsel’s actions were

21

reasonable. The question is whether there is any reasonable argument that counsel

22

satisfied Strickland’s deferential standard.” Harrington, 562 U.S. at 105.

23

This Court will now address Franklin’s two ineffective-assistance-of-trial-counsel

24

claims in turn.

25

i.

Ground 2(a)

26

In Ground 2(a), Franklin alleges that his trial counsel failed to impeach L.A. by

27

asking him to describe identifying marks on Franklin’s body. (ECF No. 20 at 13.) Franklin

28

elaborates that this line of questioning would have shown that the sexual interactions
10

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 11 of 16
1

between him and L.A. never occurred since he “had distinctive body markings” that L.A.

2

would not have been able to identify. (Id. at 13-14.) In its order denying Franklin’s appeal

3

of the denial of his state habeas petition, the Nevada Supreme Court held:

4
5
6
7
8
9

Franklin claims that the district court erred by failing to conduct an
evidentiary hearing on his claim that trial counsel was ineffective for failing
to cross-examine the victim about the distinctive markings on Franklin’s
body. Franklin argued that these markings were very noticeable during
sexual activity and the victim’s inability to describe them would have
“decimated” his credibility. However, the district court found that trial
counsel “extensively and thoroughly cross-examined the victim,” the record
on appeal supports the district court’s finding, and we conclude that the
record repels Franklin’s claim that trial counsel’s performance was deficient
in this regard.

10

(ECF No. 32-23 at 2-3.) The Nevada Supreme Court’s rejection of Franklin’s Strickland

11

claim was neither contrary to nor an unreasonable application of clearly established law

12

as determined by the United States Supreme Court.

13

The state district court reasonably determined—and the Nevada Supreme Court

14

reasonably agreed—that Franklin’s trial counsel thoroughly cross-examined L.A. (See

15

ECF No. 26-1 18-32; ECF No. 26-2 at 2-4.) Indeed, Franklin’s trial counsel noted

16

numerous inconsistencies in L.A.’s testimony. First, L.A. testified that he started “making

17

phone calls to [the] party line” in early 2003, but after Franklin’s trial counsel had him

18

review his police interview statement from October 2, 2003, L.A. changed his testimony,

19

indicating that he started talking on the party line in December 2002. (ECF No. 26-1 at

20

19.) Second, L.A. testified that he went on the party line looking for friends, but after

21

reviewing the same police statement from October 2, 2003 at the request of Franklin’s

22

trial counsel, L.A. testified that he told the detective that he was “looking for a mature

23

person, preferably a male.” (Id. at 20.) Third, L.A. admitted during cross-examination

24

that he had lied to the detective during the October 2, 2003 interview when he said that

25

his first sexual experience was with another individual, Dejuan Jackson, not Franklin.

26

(Id. at 22.) Fourth, L.A. testified that he did not remember which middle school he was

27

attending during his relationship with Franklin, but after reviewing a document shown to

28

him by Franklin’s trial counsel, L.A. testified that he was attending Swainston. (Id. at 25.)
11

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 12 of 16
1

Fifth, Franklin’s trial counsel noted that L.A. told detectives on October 16, 2003, that he

2

had three sexual encounters with Franklin even though L.A. testified at trial that he only

3

had two sexual encounters with Franklin. (Id. at 28.) Sixth, Franklin’s trial counsel noted

4

that L.A. told the detective that all three sexual encounters with Franklin took place at

5

his stepfather’s residence, but L.A. testified at trial that one sexual encounter took place

6

at his grandmother’s residence. (ECF No. 26-2 at 2.) Seventh, Franklin’s trial counsel

7

noted that L.A. testified at the preliminary hearing that he had oral sex with Franklin at

8

their first in-person meeting, but L.A. testified at trial that that was not true. (Id. at 3.)

9

The Nevada Supreme Court reasonably determined that Franklin’s trial counsel

10

was not deficient. Strickland, 466 U.S. at 688. Importantly, because Franklin’s trial

11

counsel was able to highlight the seven foregoing inconsistencies during L.A.’s cross-

12

examination, it cannot be concluded that her “representation fell below an objective

13

standard of reasonableness” by failing to impeach L.A. Id. Further, Franklin’s trial

14

counsel may have strategically avoided asking L.A. about Franklin’s distinctive markings

15

for fear that L.A. may have been able to successfully answer the question, thereby

16

enhancing L.A.’s testimony against Franklin and negating the previously-mentioned

17

inconsistencies. See Harrington, 562 U.S. at 107 (2011) (“Counsel was entitled to

18

formulate a strategy that was reasonable at the time.”); see, e.g., Sully v. Ayers, 725

19

F.3d 1057, 1073 (9th Cir. 2013) (finding that “the supposedly impeaching evidence that

20

counsel failed to uncover and present . . . had no impeachment value”). Finally, it is not

21

clear whether Franklin’s trial counsel was even aware of Franklin’s distinctive body

22

markings in order to question L.A. about them. See Babbitt v. Calderon, 151 F.3d 1170,

23

1174 (9th Cir. 1998) (“[C]ounsel is not deficient for failing to find mitigating evidence if,

24

after a reasonable investigation, nothing has put the counsel on notice of the existence

25

of that evidence.”). Thus, because the Nevada Supreme Court reasonably denied

26

Franklin’s ineffective-assistance-of-trial-counsel claim, Franklin is denied federal

27

habeas relief for Ground 2(a).

28

///
12

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 13 of 16
ii.

1

Ground 2(b)

2

In Ground 2(b), Franklin alleges that his trial counsel failed to call L.A.’s

3

stepfather’s roommate to attack L.A.’s credibility. (ECF No. 20 at 14.) In its order denying

4

Franklin’s appeal of the denial of his state habeas petition, the Nevada Supreme Court

5

held:

6
7
8
9
10
11
12

Franklin claims that the district court erred by failing to conduct an
evidentiary hearing on his claim that trial counsel was ineffective for failing
to call the victim’s stepfather’s roommate as a witness. Franklin argued that
the roommate would have provided testimony that “negatively affected [the
victim’s] credibility regarding his version of events and times that said
events took place.” The district court found that “relying on this single
witness would not have changed the outcome of the trial.” We conclude that
Franklin failed to provide specific factual allegations tending to demonstrate
a reasonable probability that the outcome of the trial would have been
different had this witness been called to testify. See Strickland, 466 U.S. at
694 (stating the test for establishing prejudice in an ineffective-assistanceof-trial-counsel claim).

13

(ECF No. 32-23 at 3.) The Nevada Supreme Court’s rejection of Franklin’s Strickland

14

claim was neither contrary to nor an unreasonable application of clearly established law

15

as determined by the United States Supreme Court.

16

During cross-examination, L.A. testified that his “first [sexual] contact with Mr.

17

Franklin” took place “around” April 2003 at his stepfather’s house while his stepfather

18

was “[s]upposedly” at work. (ECF No. 26-1 at 26-27.) L.A. was not able to give a specific

19

date, but he explained that the sexual encounter took place “[a]round 10 or 11 in the

20

morning” and “had to have been around th[e] time” that he was “home from school.” (Id.

21

at 26; ECF No. 26 at 23.) When asked if he was “absent from school on the 22nd and

22

23rd [and 30th] of April of 2003,” L.A. responded that he did not remember. 3 (ECF No.

23

26-1 at 26-27.) L.A. also did not remember telling the detective during a police interview

24

that his first sexual encounter with Franklin took place when he was absent from school

25

“two days back to back.” (Id. at 27.) Instead, L.A. testified that he was not certain

26

“whether [he was] actually home sick or home for spring break or home for some other

27
28

3Franklin

indicates that April 22, 2003 was a Tuesday; April 23, 2003 was a
Wednesday; and April 30, 2003 was a Tuesday. (ECF No. 68 at 14.)
13

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 14 of 16
1

reason.” (ECF No. 26-2 at 3.)

2

Irvin Blake, L.A.’s stepfather, testified that he divorced L.A.’s mother in January

3

2003 and was living alone until his roommate and coworker, Bruce Stroup, moved in.

4

(ECF No. 27-1 at 22.) Blake testified that he thought Stroup moved in “around March [of

5

2003], but [he was] not sure.” (Id. at 22, 26.) Blake had Tuesdays and Wednesdays off

6

work during April 2003, and he thought that Stroup “had different off days.” (Id. at 23.)

7

In an affidavit dated April 10, 2012, and prepared for Franklin’s state habeas

8

proceedings, Marcy Valle indicated that she “was assigned to work the case of Reginald

9

Franklin” and her duties included “interview[ing] Bruce Stroup.” (ECF No. 32-7 at 2.)

10

During an interview which took place on April 9, 2012, “Stroup stated that he did ‘in fact’

11

live with Irvin Blake during the time of the alleged assaults on [L.A.].” (Id.) “Stroup also

12

stated that he had never seen any inappropriate activity or actions regarding [L.A.].” (Id.)

13

Even if Franklin’s trial counsel was deficient for not calling Stroup as a witness,

14

the Nevada Supreme Court reasonably concluded that Franklin failed to demonstrate

15

prejudice. Strickland, 466 U.S. at 694. First, other than being able to clarify that he lived

16

with Blake during April 2003, there is no additional information provided in Valle’s

17

affidavit that Stroup’s testimony would have been anything but duplicative of Blake’s

18

testimony. See Cunningham v. Wong, 704 F.3d 1143 (9th Cir. 2013) (failing to call

19

additional mitigating witnesses was not prejudicial since their testimony would have

20

been cumulative of other testimony). Second, because Blake testified that he had

21

Tuesdays and Wednesdays off work in April 2003 and that Stroup had different days off,

22

Stroup would have been working on April 22, 23, and 30, 2003—the dates that Franklin

23

alleges that L.A. believed his first sexual encounter with Franklin took place.

24

Accordingly, Stroup’s testimony would not have attacked L.A.’s credibility, as Franklin

25

contends. Finally, L.A. testified that he was unsure of the specific date that his first

26

sexual encounter with Franklin took place. (ECF No. 26-1 at 26.) Due to this lack of

27

specificity and failure of Franklin to demonstrate what Stroup’s testimony would have

28

been regarding dates he was home in April 2003, Franklin fails to show how Stroup’s
14

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 15 of 16
1

testimony would have challenged L.A.’s testimony or changed the outcome of his trial.

2

See United States v. Berry, 814 F.2d 1406, 1409 (9th Cir. 1987) (denying an ineffective-

3

assistance-of-counsel claim based on counsel’s refusal to call witnesses because the

4

defendant “offers no indication of . . . how their testimony might have changed the

5

outcome of the hearing”); Laboa v. Calderon, 224 F.3d 972, 981 (9th Cir.2000) (holding

6

petitioner has the burden of proof under the Strickland test). Because the Nevada

7

Supreme Court reasonably denied Franklin’s ineffective-assistance-of-trial-counsel

8

claim, Franklin is denied federal habeas relief for Ground 2(b). 4

9

V.

CERTIFICATE OF APPEALABILITY

10

This is a final order adverse to Franklin. Rule 11 of the Rules Governing Section

11

2254 Cases requires this Court to issue or deny a certificate of appealability (“COA”).

12

Therefore, this Court has sua sponte evaluated the claims within the petition for suitability

13

for the issuance of a COA. See 28 U.S.C. § 2253(c); Turner v. Calderon, 281 F.3d 851,

14

864-65 (9th Cir. 2002). Pursuant to 28 U.S.C. § 2253(c)(2), a COA may issue only when

15

the petitioner “has made a substantial showing of the denial of a constitutional right.” With

16

respect to claims rejected on the merits, a petitioner “must demonstrate that reasonable

17

jurists would find the district court’s assessment of the constitutional claims debatable or

18

wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (citing Barefoot v. Estelle, 463 U.S.

19

880, 893 & n.4 (1983)). Applying this standard, this Court finds that a certificate of

20

appealability is unwarranted.

21
22
23

VI.

CONCLUSION
It is therefore ordered that the first amended petition for writ of habeas corpus by

a person in state custody pursuant to 28 U.S.C. § 2254 (ECF No. 20) is denied.

24
25
26
27
28

4Franklin

requests that this Court “[c]onduct a hearing where [he] can offer proof
concerning the allegation in this Petition and any defense that may be raised by the State.”
(ECF No. 68 at 15.) Franklin fails to explain what evidence would be presented at an
evidentiary hearing. Additionally, this Court has already determined that Franklin is not
entitled to relief, and neither further factual development nor any evidence that may be
proffered at an evidentiary hearing would affect this Court’s reasons for denying relief.
Thus, Franklin’s request for a hearing is denied.
15

Case 3:13-cv-00613-MMD-WGC Document 72 Filed 07/20/20 Page 16 of 16
1

It is further ordered that Petitioner is denied a certificate of appealability.

2

The Clerk of Court is directed to enter judgment accordingly and close this case.

3

DATED THIS 20th day of July 2020.

4
5
6

MIRANDA M. DU
CHIEF UNITED STATES DISTRICT JUDGE

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
16

Case 3:13-cv-00613-MMD-WGC Document 63 Filed 12/21/18 Page 1 of 6
1
2
3
4
5
6

UNITED STATES DISTRICT COURT

7

DISTRICT OF NEVADA

8

***

9

REGINALD FRANKLIN,

10
11
12

Petitioner,

v.

ORDER

ROBERT LEGRAND, et al.,
Respondents.

13
14

Case No. 3:13-cv-00613-MMD-WGC

I.

SUMMARY

15

Before the Court are the first amended petition for writ of habeas corpus (ECF No.

16

20), Respondents’ renewed motion to dismiss (ECF No. 54), Petitioner’s opposition (ECF

17

No. 57), and Respondents’ reply (ECF No. 60). The Court finds that Petitioner has

18

procedurally defaulted grounds 2(C), 2(D), 3(A), and 3(B). The Court also finds that

19

Petitioner has not shown cause and prejudice to excuse the procedural default.

20

Accordingly, the Court grants the motion to dismiss.

21

II.

BACKGROUND

22

After a jury trial in state district court, Petitioner was convicted of five counts of

23

lewdness with a child under the age of 14. (Ex. 53 (ECF No. 28-2) (second amended

24

information); Ex. 56 (ECF No. 28-6) (judgment of conviction).) Petitioner appealed, and

25

the Nevada Supreme Court affirmed. (Ex. 80 (ECF No. 29-5).)

26

Petitioner then filed a proper-person post-conviction habeas corpus petition in the

27

state district court. (Ex. 83 (ECF No. 30).) The state district court appointed counsel, who

28

filed a supplement to the petition. (Ex. 99 (ECF No. 32-5).) The state district court denied

Case 3:13-cv-00613-MMD-WGC Document 63 Filed 12/21/18 Page 2 of 6
1

the petition. (Ex. 106 (ECF No. 32-12).) Petitioner appealed, and the Nevada Supreme

2

Court affirmed. (Ex. 117 (ECF No. 32-23).)

3

Petitioner then commenced this action. The Court appointed counsel, who filed the

4

first amended petition (ECF No. 20). Respondents filed their first motion to dismiss (ECF

5

No. 36). The Court found that Petitioner had not exhausted grounds 2(C), 2(D), 3(A), and

6

3(B) (ECF No. 43). The Court stayed the action while Petitioner exhausted those grounds

7

in state court (ECF No. 46).

8

Petitioner filed another post-conviction habeas corpus petition in the state district

9

court. (Ex. 13 (ECF No. 50-1).1) The state district court dismissed the petition. (Ex. 15

10

(ECF No. 50-4).) Petitioner appealed. The Nevada Court of Appeals affirmed. (Ex. 18

11

(ECF No. 50-7).2) It held that the petition was untimely under Nev. Rev. Stat. § 34.726(1)

12

and successive under Nev. Rev. Stat. § 34.810(2), and that petitioner had not shown good

13

cause to excuse those procedural bars. Id.
Petitioner then moved to reopen this action (ECF No. 49). The court granted the

14
15

motion. Respondents then filed their renewed motion to dismiss (ECF No. 54).

16

III.

LEGAL STANDARD

17

A federal court will not review a claim for habeas corpus relief if the decision of the

18

state court regarding that claim rested on a state-law ground that is independent of the

19

federal question and adequate to support the judgment. Coleman v. Thompson, 501 U.S.

20

722, 730-31 (1991).

21
22
23
24
25
26
27
28

1The

numbering of exhibits in ECF No. 50 is odd. In support of his first amended
petition (ECF No. 20), Petitioner filed a set of exhibits numbered 1 through 118 (ECF Nos.
21-32). Then, in support of his motion to reopen case (ECF No. 49), Petitioner filed another
set of exhibits (ECF No. 50). However, the new exhibits do not continue the existing
numbering sequence (i.e., resuming with exhibit 119). Instead, Petitioner numbered the
new exhibits as 13, 13.1, and 14 through 19 (ECF Nos. 50-1 to 50-8). Now Petitioner has
two sets of distinct exhibits numbered 13 through 19, with exhibit 13.1 in the new set being
unique. This will be confusing because original exhibits 13 and 14, which are the transcript
of the hearing and the written order on the prosecution’s motion to admit evidence of other
acts, are important to this order. The Court will refer to both the ECF number and the
exhibit number to avoid confusion.
2This

Appeals.

exhibit is truncated after the first page of the order of the Nevada Court of
2

Case 3:13-cv-00613-MMD-WGC Document 63 Filed 12/21/18 Page 3 of 6
In all cases in which a state prisoner has defaulted his federal claims in state
court pursuant to an independent and adequate state procedural rule,
federal habeas review of the claims is barred unless the prisoner can
demonstrate cause for the default and actual prejudice as a result of the
alleged violation of federal law, or demonstrate that failure to consider the
claims will result in a fundamental miscarriage of justice.

1
2
3
4
5

Id. at 750; see also Murray v. Carrier, 477 U.S. 478, 485 (1986). The grounds for dismissal

6

upon which the Nevada Supreme Court relied in this case are adequate and independent

7

state rules. Vang v. Nevada, 329 F.3d 1069, 1074 (9th Cir. 2003) (NRS § 34.810);

8

Loveland v. Hatcher, 231 F.3d 640 (9th Cir. 2000) (NRS § 34.726); Moran v. McDaniel,

9

80 F.3d 1261 (9th Cir. 1996) (same).
[W]hen a State requires a prisoner to raise an ineffective-assistance-of-trialcounsel claim in a collateral proceeding, a prisoner may establish cause for
a default of an ineffective-assistance claim in two circumstances. The first is
where the state courts did not appoint counsel in the initial-review collateral
proceeding for a claim of ineffective assistance at trial. The second is where
appointed counsel in the initial-review collateral proceeding, where the claim
should have been raised, was ineffective under the standards of Strickland
v. Washington, 466 U.S. 668 (1984). To overcome the default, a prisoner
must also demonstrate that the underlying ineffective-assistance-of-trialcounsel claim is a substantial one, which is to say that the prisoner must
demonstrate that the claim has some merit. Cf. Miller-El v. Cockrell, 537 U.S.
322 (2003) (describing standards for certificates of appealability to issue).

10
11
12
13
14
15
16
17

Martinez v. Ryan, 566 U.S. 1, 14 (2012). The Court then re-stated Martinez as a four-part

18

test:
[W]here (1) the claim of “ineffective assistance of trial counsel” was a
“substantial” claim; (2) the “cause” consisted of there being “no counsel” or
only “ineffective” counsel during the state collateral review proceeding; (3)
the state collateral review proceeding was the “initial” review proceeding in
respect to the “ineffective-assistance-of-trial-counsel claim”; and (4) state
law requires that an “ineffective assistance of trial counsel [claim] . . . be
raised in an initial-review collateral proceeding.”

19
20
21
22
23

Trevino v. Thaler, 569 U.S. 413, 423 (2013).

24

IV.

DISCUSSION

25

Respondents argue that grounds 2(C), 2(D), 3(A), and 3(B) are procedurally

26

defaulted. Petitioner responds that he can show cause to excuse the defaults under

27

Martinez. Petitioner presents no other arguments for cause and prejudice.

28

///
3

Case 3:13-cv-00613-MMD-WGC Document 63 Filed 12/21/18 Page 4 of 6
1

Martinez does not apply to grounds 3(A) and 3(B) because they are procedurally

2

defaulted claims of ineffective assistance of appellate counsel, not trial counsel. Davila v.

3

Davis, 137 S. Ct. 2058 (2017). Petitioner recognizes this and maintains the argument to

4

preserve it. (ECF No. 57 at 11.) The Court will dismiss grounds 3(A) and 3(B).

5

Martinez does not apply to ground 2(C) because of the way it was procedurally

6

defaulted. Petitioner raised the same claim in his first state post-conviction habeas corpus

7

petition. (Ex. 83 at 7g (ECF No. 30 at 16).) On appeal from the denial of that petition,

8

Petitioner did not raise the claim. (See Ex. 115 (ECF No. 32-21).) For that reason,

9

Petitioner had not exhausted, and now has procedurally defaulted, ground 2(C). Martinez

10

does not apply to a procedurally defaulted claim of ineffective assistance of trial counsel

11

when the procedural default occurred because the Petitioner did not raise the claim on

12

post-conviction appeal. 566 U.S. at 14. The Court will dismiss ground 2(C).

13

Ground 2(D) is a claim that Petitioner received ineffective assistance because trial

14

counsel did not object to the introduction of prior-bad-act evidence. Petitioner had not

15

exhausted this claim because he had not presented it to any state court in any form before

16

he raised it in the first amended petition. Ground 2(D) now is procedurally defaulted.

17

Martinez is applicable to ground 2(D).

18

Before trial, the prosecution filed a motion to admit evidence of other acts. (Ex. 7

19

(ECF Nos. 22-3, 22-4).) Petitioner, through trial counsel, filed an opposition. (Ex. 11 (ECF

20

No. 23-2).) The opposition contained arguments why the trial court should deny the

21

prosecution’s motion; it was more than pro forma. (Id. (ECF No. 23-2).) Trial counsel then

22

argued at a hearing why the trial court should deny the prosecution’s motion. (Ex. 13 at

23

10-14 (ECF No. 23-4 at 11-15).) The trial court agreed with Petitioner’s trial counsel and

24

denied the prosecution’s motion. (Ex. 13 at 14-15 (ECF No. 23-4 at 15-16); Ex. 14 (ECF

25

No. 23-5).3) The prosecution then filed a petition for a writ of mandamus in the Nevada

26

///

27
28

3Again,

these exhibits 13 and 14 are different from the exhibits 13 and 14 that
Petitioner filed in support of his motion to reopen.
4

Case 3:13-cv-00613-MMD-WGC Document 63 Filed 12/21/18 Page 5 of 6
1

Supreme Court. (Ex. 75 (ECF No. 29 at 7-12).4) Petitioner, through trial counsel, filed an

2

answer to the petition. (Ex. 75 (ECF No. 29 at 14-18).) The Nevada Supreme Court

3

granted the petition with respect to Petitioner’s other criminal acts. (Ex. 75 (ECF No. 29 at

4

19-23).5) It directed the trial court to allow the prosecution to introduce evidence of

5

Petitioner’s other criminal acts. (Id. (ECF No. 29 at 22-23).) At trial, when the prosecution

6

called the witness whose testimony was the evidence of those other criminal acts, trial

7

counsel did not object. (Ex. 50 at 140-41 (ECF No. 27-1 at 8).)

8

Petitioner has not shown cause under Martinez because he has not demonstrated

9

that ground 2(D) is a substantial claim of ineffective assistance of counsel. Trial counsel

10

fully litigated the admissibility of Petitioner’s other criminal acts, but to an unfavorable

11

conclusion. If Petitioner believes that trial counsel failed to make an argument during that

12

litigation, then he does not allege now what that argument was. It simply is untrue that trial

13

counsel failed to object to the admission of the other criminal acts, unless Petitioner means

14

that trial counsel should have lodged a formal objection at trial. If Petitioner believes that

15

trial counsel should have lodged a formal objection at trial, then he cannot demonstrate a

16

reasonable probability of a different outcome. The trial court would have overruled the

17

objection based upon the Nevada Supreme Court’s order. If Petitioner believes that an

18

objection at trial would have preserved the issue for appeal, then he still cannot

19

demonstrate a reasonable probability of a different outcome. The Nevada Supreme Court

20

already had decided the issue. On direct appeal, it simply would have held that the prior

21

decision was the law of the case. Given the record, the Court sees no way that ground

22

2(D) could be a substantial claim of ineffective assistance of trial counsel. The Court

23

therefore dismisses ground 2(D).

24

///

25



26
27
28

4Exhibit

75 is the appendix filed on direct appeal. It contains only excerpts of the
prosecution’s petition for a writ of mandamus and Petitioner’s answer to that petition.
5The

Nevada Supreme Court denied the mandamus petition in part with respect to
other issues that are not relevant to ground 2(D).
5

Case 3:13-cv-00613-MMD-WGC Document 63 Filed 12/21/18 Page 6 of 6
1

V.

CONCLUSION

2

It is therefore ordered that Respondents’ renewed motion to dismiss (ECF No. 54)

3

is granted. The Court dismisses grounds 2(C), 2(D), 3(A), and 3(B) because they are

4

procedurally defaulted.

5

It is further ordered that Respondents will have 45 days from the date of entry of

6

this order to file and serve an answer, which must comply with Rule 5 of the Rules

7

Governing Section 2254 Cases in the United States District Courts. Petitioner will have 45

8

days from the date on which the answer is served to file a reply.

9

DATED THIS 21st day of December 2018.

10
11
MIRANDA M
MIRANDA
M
M. DU
UNITED STATES DISTRICT JUDGE

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
6

IN THE COURT OF APPEALS OF THE STATE OF NEVADA

REGINALD FRANKLIN,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

No. 72177

FILED
NOV 1 4 2017
, _ETH A ROVIIN
a; it

liv aird
PR

ORDER OF AFFIRMANCE
Reginald Franklin appeals from a district court order denying
the postconviction petition for a writ of habeas corpus he filed on August 31,
2016. 1 Eighth Judicial District Court, Clark County; Douglas Smith, Judge.
Franklin's petition was untimely because it was filed more than
seven years after the remittitur on direct appeal was issued on August 18,
2009, 2 see NRS 34.726(1), and it was successive because he had previously
filed a postconviction petition for a writ of habeas corpus, 3 see NRS
34.810(2). These procedural bars were unexcused because Franklin made
no attempt to show good cause for filing a late and successive petition.

See

NRS 34.726(1); NRS 34.810(3). Accordingly, we conclude the district court
did not err by denying Franklin's petition as procedurally-barred, see State

'This appeal has been submitted for decision without oral argument
and we conclude the record is sufficient for our review and briefing is
unwarranted. NRAP 34(0(3), (g).
2 See

Franklin v. State, Docket No. 50229 (Order of Affirmance, July

23, 2009).
Franklin v. State, Docket No. 60808 (Order of Affirmance,
October 17, 2013).
3 See

COURT OF APPEALS
OF
NEVADA
(0) 194713

ce.

v. Eighth Judicial Dist. Court (Riker), 121 Nev. 225, 231, 112 P.3d 1070,
1074 (2005) (explaining the application of procedural bars is mandatory),
and we
ORDER the judgment of the district court AFFIRMED.

'1/4-14:44)e4D
Silver

'

Tao

Gibbon

cc: Hon. Douglas Smith, District Judge
Reginald Franklin
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

COURT OF APPEALS
OF
NEVADA
(0) 194713

2

C

-

C.J.

APP. 026

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 1 of 23

1
2
3
4
5

RENE L. VALLADARES
Federal Public Defender
Nevada State Bar No. 11479
T. KENNETH LEE
Assistant Federal Public Defender
Ohio State Bar No. 0065158
411 E. Bonneville Avenue, Suite 250
Las Vegas, Nevada 89101
(702) 388-6577
(702) 388-6261 (FAX)

6
7

Attorneys for Petitioner

8
9

UNITED STATES DISTRICT COURT

10

DISTRICT OF NEVADA

11
12
13

REGINALD FRANKLIN,

Case No. 3:13-cv-00613-MMD-WGC

Petitioner,

14
15

vs.

16

ROBERT LEGRAND, et al.,

FIRST AMENDED PETITION FOR
WRIT OF HABEAS CORPUS BY A
PERSON IN STATE CUSTODY
PURSUANT TO 28 U.S.C. § 2254

Respondents.

17
18
19

Petitioner, Reginald Franklin (“Franklin”), by and through his attorney of record,

20

T. Kenneth Lee, Assistant Federal Public Defender, file this First Amended Petition for

21

Writ of Habeas Corpus by a person in State Custody Pursuant to 28 U.S.C. § 2254.1
Franklin’s First Amended Petition alleges the following:

22
23

I.

PROCEDURAL HISTORY

24

Following his four-day jury trial, Franklin was convicted of: lewdness with a child

25

under the age of fourteen (Count 1); lewdness with a child under the age of fourteen

26

(Count 2); lewdness with a child under the age of fourteen (Count 3); lewdness with a child

27
28

1

The exhibits referenced in this First Amended Petition are identified as “Ex.”
Petitioner reserves the right to file supplemental exhibits as needed and relevant.
Citations to the Clerk’s Record are identified as “CR.”

APP. 027

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 2 of 23

1

under the age of fourteen (Count 4); and lewdness with a child under the age of fourteen

2

(Count 5). See Ex. 54, Tr.Vol.V 6/8/07 at 75-78; see also Ex. 46, Tr.Vol.I 6/4/07; Ex. 48,

3

Tr.Vol.II 6/5/07; Ex. 49, Tr.Vol.III 6/6/07; Ex.50, Tr.Vol.IV 6/8/07. As a result, Franklin

4

was sentenced to the Nevada Department of Corrections for a maximum aggregate term

5

of life with a minimum eligibility of parole after thirty (30) years. Ex. 56. Franklin was

6

given one hundred-one (101) days of credit for time served, lifetime supervision, and

7

ordered to register as a sex offender upon his release. Id. Franklin is currently serving

8

his sentence at Lovelock Correctional Center in Lovelock, Nevada.

9

A.

Trial Court Proceedings

10

On December 16, 2003, a criminal complaint was filed in which Franklin was

11

charged with: sexual assault with a minor under fourteen years of age (Count 1); lewdness

12

with a child under the age of fourteen (Count 2); statutory sexual seduction (Count 3);

13

sexual assault with a minor under fourteen years of age (Count 4); lewdness with a child

14

under the age of fourteen (Count 5); statutory sexual seduction (Count 6); lewdness with

15

a child under the age of fourteen (Count 7); statutory sexual seduction (Count 8); sexual

16

assault with a minor under fourteen years of age (Count 9); statutory sexual seduction

17

(Count 10); lewdness with a child under the age of fourteen (Count 11); statutory sexual

18

seduction (Count 12); sexual assault with a minor under fourteen years of age (Count 13);

19

lewdness with a child under the age of fourteen (Count 14); lewdness with a child under

20

the age of fourteen (Count 15); and statutory sexual seduction (Count 16). Ex. 2. On

21

December 17, 2003, a warrant to arrest Franklin was issued. Ex. 1 at 1.

22

On January 16, 2004, the State, prior to the preliminary hearing, filed an amended

23

complaint wherein it alleged the following: (Count 1); lewdness with a child under the age

24

of fourteen (Count 2); statutory sexual seduction (Count 3); solicitation of a minor to

25

engage in acts constituting crimes against nature (Count 4); sexual assault with a minor

26

under fourteen years of age (Count 5); lewdness with a child under the age of fourteen

27

(Count 6); statutory sexual seduction (Count 7); sexual assault with a minor under

28

fourteen years of age (Count 8); lewdness with a child under the age of fourteen (Count 9);
2

APP. 028

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 3 of 23

1

statutory sexual seduction (Count 10); solicitation of a minor to engage in acts constituting

2

crimes against nature (Count 11); sexual assault with a minor under fourteen years of age

3

(Count 12); lewdness with a child under the age of fourteen (Count 13); statutory sexual

4

seduction (Count 14); sexual assault with a minor under fourteen years of age (Count 15);

5

lewdness with a child under the age of fourteen (Count 16); statutory sexual seduction

6

(Count 17); sexual assault with a minor under fourteen years of age (Count 18); lewdness

7

with a child under the age of fourteen (Count 19); statutory sexual seduction (Count 20);

8

sexual assault with a minor under fourteen years of age (Count 21); lewdness with a child

9

under the age of fourteen (Count 22); statutory sexual seduction (Count 23); and

10

solicitation of a minto to engage in acts constituting crimes against nature (Count 24). Ex.

11

4; see also Ex. 3, Tr.1/16/04 at 113-14.

12

At the preliminary hearing, held after the State filed the aforementioned amended

13

complaint, the State presented the testimony of the alleged victim, LA. Id. at 5-27. In

14

response the Defense presented the testimonies of Edyth Boyd and Savitra Candley. See

15

id. at 72-78, 80-84, 94-95. Based on the evidence presented, the court bound Franklin

16

over, but dismissed Counts 21-24. Id. 108-14.

17

On January 21, 2004, the State filed the Information, in which Franklin was

18

charged with: sexual assault with a minor under fourteen years of age (Count 1); lewdness

19

with a child under the age of fourteen (Count 2); statutory sexual seduction (Count 3);

20

sexual assault with a minor under fourteen years of age (Count 4); lewdness with a child

21

under the age of fourteen (Count 5); statutory sexual seduction (Count 6); solicitation of

22

a minor to engage in acts constituting crimes against nature (Count 7); lewdness with a

23

child under the age of fourteen (Count 8); statutory sexual seduction (Count 9); lewdness

24

with a child under the age of fourteen (Count 10); statutory sexual seduction (Count 11);

25

solicitation of a minor to engage in acts constitution crimes against nature (Count 12);

26

lewdness with a child under the age of fourteen (Count 13); statutory sexual seduction

27

(Count 14); lewdness with a child under the age of fourteen (Count 15); statutory sexual

28

seduction (Count 16); lewdness with a child under the age of fourteen (Count 17); statutory
3

APP. 029

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 4 of 23

1

sexual seduction (Count 18); and solicitation of a minor to engage in acts constituting

2

crimes against nature (Count 19). Ex. 5. On January 29, 2004, Franklin was arraigned

3

on the Information, pled not guilty and waived his speedy trial rights. Ex 6, Tr.1/29/04 at

4

4-5.

5

On April 29, 2005, pre-trial litigation ended when Franklin entered into a plea

6

agreement with the State. Ex. 1 at 4-34; Ex. 24. Pursuant to the plea agreement,

7

Franklin pled guilty to: unlawful contact with a child, which is a gross misdemeanor

8

(Count 1); and attempted lewdness with a child under the age of fourteen (Count 2). See

9

id.

10

On September 21, 2005, following four continuances of Franklin’s sentencing

11

hearing, the court held a hearing on Franklin’s motion to withdraw the guilty plea. Ex.

12

27; Ex. 28, Tr.9/21/05. At this hearing, Defense Counsel informed the court that the

13

parties had not been able to resolve the issue with Franklin’s Texas case, for which he was

14

serving probation, and that Franklin “just wants this over with.” Id. at 3; Ex. 27 at 4-5.

15

The State responded and informed the court that “the parties disagree[d] over the

16

negotiations[,] so there apparently was not a meeting of the minds[, and that] the State

17

will not oppose the motion to withdraw plea.” Ex. 28, Tr.9/21/05 at 5. The court granted

18

the motion to withdraw the plea and set a trial date. See id. at 5-7.

19

On June 5, 2007, the State filed in open court an Amended Information, in which

20

Franklin was charged with seven (7) counts of lewdness with a child under the age of

21

fourteen. Ex. 47. Franklin’s jury trial then began before Judge Villani. Ex. 48, Tr.6/5/07.

22

On June 8, 2007, prior to closing arguments, the State filed in open court a Second

23

Amended Information, in which Franklin was charged with five (5) counts of lewdness

24

with a child under the age of fourteen. Ex. 54, Tr.6/8/07 at 15; Ex. 53. On this same day,

25

the jury returned a verdict of guilty as to all five (5) counts of lewdness with a child under

26

the age of fourteen. Ex. 54, Tr.6/8/07 at 75-78; see also Ex. 52.

27

On August 2, 2007, Franklin appeared before Judge Villani for sentencing. Ex. 55,

28

Tr.8/2/07. The court heard arguments from counsel, from LA’s mother, and after Franklin
4

APP. 030

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 5 of 23

1

declined the court’s offer to speak on his own behalf, the court sentenced Franklin as

2

follows:

3

Count 1:

confinement in the Nevada Department of Corrections for a
maximum term of life in prison with parole eligibility after ten
(10 ) years;

Count 2:

confinement in the Nevada Department of Corrections for a
maximum term of life in prison with parole eligibility after ten
(10 ) years, to be run consecutive to Count 1;

Count 3:

confinement in the Nevada Department of Corrections for a
maximum term of life in prison with parole eligibility after ten
(10 ) years, to be run consecutive to Count 2;

Count 4:

confinement in the Nevada Department of Corrections for a
maximum term of life in prison with parole eligibility after ten
(10 ) years, to be run concurrent to Count 3;

Count 5:

confinement in the Nevada Department of Corrections for a
maximum term of life in prison with parole eligibility after ten
(10 ) years, to be run concurrent to Count 3.

4
5
6
7
8
9
10
11
12
13

Id. at 2-9, 13-14, 16-17. Additionally, the court ordered: (1) Franklin to receive one

14

hundred and one (101) days credit for time served; (2) Franklin to register as a sex

15

offender; (3) lifetime supervision; and (3) assessed fees and restitution in the amount of

16

seven thousand-four hundred and seventy-five dollars ($7,475.00). Id. at 17.

17
18

On August 15, 2007, the Judgment of Conviction was filed. Ex. 56. On August 28,
2007, Defense Counsel moved to withdraw from Franklin’s case. Ex. 57.

19

B.

20

On September 13, 2007, Franklin mailed his proper person Notice of Appeal and

21

Direct Appeal Proceedings

Case Appeal Statement, both of which were filed on September 20, 2007. Exs. 58, 59.

22

On October 1, 2007, the Nevada Supreme Court remanded Franklin’s case to the

23

district court for the district court to determine if Franklin was indigent and needed the

24

appointment of appellate counsel. Ex. 62. On October 9, 2007, the district court held a

25

hearing in which it determined Franklin was indigent and appointed Attorney Hatcher

26

as appellate counsel. Ex. 63, Tr.10/9/07 at 2. On October 22, 2007, the Nevada Supreme

27

Court issued an show cause order, ordering Attorney Hatcher to demonstrate why the

28

court should not dismiss Franklin’s appeal for lack of jurisdiction. Ex. 65.
5

APP. 031

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 6 of 23

1

On November 29, 2007, Attorney Hatcher filed Franklin’s response to the show

2

cause order. Ex. 66. On December 7, 2007, the Nevada Supreme issued its order directing

3

the appeal to proceed as timely filed. Ex. 67.

4

On August 25, 2008, Attorney Hatcher filed a motion to withdraw as Franklin’s

5

appellate attorney. Ex. 68. In this motion, Attorney Hatcher informed the court that she

6

knew the victim’s family, that she has had dinner with them, and that her husband was

7

their supervisor at work. See id. On September 26, 2008, the court filed its order allowing

8

Attorney Hatcher to withdraw and Attorney Tannery was subsequently appointed as

9

Franklin’s appellate attorney. Exs. 71, 72.

10
11
12

On March 5, 2009, Attorney Tannery filed Franklin’s Opening Brief. Ex. 76. The
following arguments were raised:
1.

THE FAILURE OF THE COURT TO [SIC.] STATE TO GIVE A
LIMITING INSTRUCTION PRIOR TO TESTIMONY OF
PREVIOUS “BAD ACTS” WAS PREJUDICIAL AND
REQUIRES REVERSAL.

2.

THE COURT ERROR BY GRANTING INSTRUCTION #6
STATING THE JURY COULD CONVICT ON
UNCORROBORATED TESTIMONY OF THE VICTIM.

13
14
15
16
17

Id. On April 8, 2009, Respondent’s Answering Brief was filed. Ex. 77. On May 5, 2009,

18

Franklin’s Reply Brief was filed. Ex. 78.

19

On May 27, 2009, the Nevada Supreme Court entered an “ORDER SUBMITTING

20

[FRANKLIN’S CASE] FOR DECISION WITHOUT ORAL ARGUMENT.” Ex. 79. On July

21

23, 2009, the Nevada Supreme Court entered an order denying Franklin appellate relief.

22

Ex. 80. On August 18, 2009, Remittitur issued. Ex. 81.

23

C.

24

On July 30, 2009, Franklin’s proper person Petition for Writ of Habeas Corpus

25
26

Nevada District Court Habeas Proceedings

(Post-Conviction) was filed. Ex. 83. Franklin raised the following grounds:
GROUND 1:

Ineffective Assistance of Appellate Counsel–Cumulative
Error. U.S.C.A. 5th and 14th.

27
A.
28

Appellate Counsel failed to raise the issue that [the] trial
court committed reversible error by refusing to grant
6

APP. 032

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 7 of 23

1

defendant’s motion for full discovery and Psychological
evaluation of the alleged victim to disprove a crime had
been committed.

2
3

B.

Appellate Counsel failed to raise the issue that [the] trial
court committed reversible error by overruling
defendant’s objection to excuse jurors number 14 and 17
for cause [because] both jurors testified that they had
had previous experience with family members having
been victims of sexual assault.

C.

Appellate Counsel failed to raise the issue that [the] trial
court committed reversible error by overruling
defendant’s objection of excusing juror number 10 one
day after trial had started.

4
5
6
7
8
9

GROUND 2:

Ineffective Assistance of Appellate Counsel–Evidence
Error. U.S.C.A. 5th, 6th and 14th.

10
A.

Appellate Counsel failed to raise[] the issue that [the]
trial court erred when it allowed the prosecutor to
introduce evidence unauthorized and fabricated email
transcripts into trial over trial counsel’s objection.

B.

Appellate [C]ounsel failed to raise the issue that [the]
trial court errored [sic.] by allowing the introduction of
the victim’s medical condition on the victim’s impact
statement at petitioner’s sentencing hearing which
petitioner had no constitutionally-adequate opportunity
to litigate and also against the Nevada Supreme Court
order not to do so in the State’s Writ of Mandamus.

11
12
13
14
15
16
17

GROUND 3:

Ineffective Assistance of Appellate Counsel–Jury
Instruction. U.S.C.A. 6th and 14th.

18
A.

Appellate Counsel failed to raise the issue that [the] trial
court committed reversible error by overruling
defendant’s objection to allow jury instruction 14.

B.

Appellate Counsel failed to raise the issue that [the] trial
court committed reversible error by allowing jury
instruction number 10 to be submitted.

19
20
21
22
GROUND 4:
23
24

Ineffective Assistance of Appellate Counsel–
Prosecutorial Misconduct. U.S.C.A. 5th, 6th and 14th.

A.

Appellate [C]ounsel failed to raise the issue that the
prosecutor engaged in prosecutorial misconduct by
misleading the defendant and the court with false and
misleading statements.

B.

Appellate [C]ounsel failed to raise the issue that [the]
prosecutor engaged in prosecutorial misconduct by
coercion of witness Mack Henry Mitchell.

25
26
27
28

7

APP. 033

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 8 of 23

1

GROUND 5:

Ineffective Assistance of Appellate Counsel–Race.
U.S.C.A. 5th, 6th and 14th.

GROUND 6:

Ineffective Assistance of Appellate Counsel–Trial
Counsel. U.S.C.A. 5th, 6th and 14th.

2
3
4

A.

Appellate [C]ounsel failed to raise the issue that trial
counsel was ineffective by failing to object and preserve
the issue of prosecutorial misconduct for appeal.

B.

Appellate [C]ounsel failed to raise the issue that trial
counsel was ineffective for failing to object to the
unconstitutional motive and intent jury instruction
number 10.

C.

Appellate [C]ounsel failed to raise the issue that trial
counsel was ineffective by failing to move for an aquittal
[sic.] of dismissal after prosecution requested to amend
the information during trial when their main witness LA
knowingly committed perjury.

D.

Appellate [C]ounsel failed to raise[] the issue that trial
counsel was ineffective by failing to present a proper
defense by advising the petitioner not to testify at trial.

E.

Appellate [C]ounsel failed to raise the issue that trial
counsel was ineffective [for] failing to present a witness
who could have offered impeachment evidence to
impeach the State’s main witness LA.

F.

All allegations of ineffective assistance of trial counsel
contained in t this ground cannot reasonabl[y] presumed
to be the result of any tactical or strategic choice within
the range of reasonable attorney competence.

5
6
7
8
9
10
11
12
13
14
15
16
17
18
GROUND 7:

Ineffective Assistance of Appellate Counsel–Direct
Appeal. U.S.C.A. 5th, 6th and 14th.

GROUND 8:

Ineffective Assistance of Appellate Counsel–Sentencing.
U.S.C.A. 5th, 6th, 8th and 14th.

19
20
21
A.

Appellate [C]ounsel failed to raise[] the issue that [the]
trial court sentenced petitioner based on prejudicial and
inaccurate information contained in the presentence
investigation report without the opportunity to rebut
said information.

B.

Appellate [C]ounsel failed to raise the issue that [the]
trial court committed reversible error by allowing the
submission of a victim impact statement with false
accusations in which the petitioner was not on trial for
to be entered with the PSI report.

C.

Appellate [C]ounsel failed to raise the issues that [the]
trial court’s abuse of discretion, failure to correct factual

22
23
24
25
26
27
28

8

APP. 034

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 9 of 23

1

inaccuracies in the PSI report and failure to provide
defense counsel with material evidence in the PSI
contributed to petitioner receiving 3 consecutive ten to
life and 2 concurrent ten to life sentences constituted
cruel and unusual punishment which would require
reversal of conviction.

2
3
4
5

Ex. 83.

6

On August 9, 2010, Franklin’s Certificate of Inmate’s Institutional Account,

7

Application to Proceed In Forma Pauperis, and Motion For Appointment of Counsel were

8

filed. Exs. 84, 85, 86, 87. On August 16, 2010, the State filed its Opposition to the

9

appointment of counsel. Ex. 88. On August 18, 2010, the State was ordered to respond

10

to Franklin’s proper person state post-conviction petition. Ex. 89. On September 2, 2010,

11

the court denied Franklin’s motion for appointment of counsel. Ex. 90. On October 6,

12

2010, the State filed its Response to Franklin’s proper person petition. Ex. 91. On

13

November 5, 2010, after filing a request, Franklin filed a Reply to the State’s Response.

14

Exs. 92, 93.

15

On March 21, 2011, Bret Whipple was appointed as Franklin’s post-conviction

16

attorney. Ex. 1 at 107. On February 22, 2011, Attorney Whipple filed a Supplement to

17

Franklin’s Writ of Habeas Corpus (Post-Conviction) and raised the following grounds:

18

A.

19

FRANKLIN RECEIVED INEFFECTIVE ASSISTANCE OF
COUNSEL MANDATING THIS COURT GRANT THE INSTANT
POST-CONVICTION PETITION FOR WRIT OF HABEAS CORPUS.

20

1.

TRIAL COUNSEL FAILED TO IMPEACH THE
ALLEGED VICTIM BY ASKING HIM TO DESCRIBE
IDENTIFYING MARKS ON FRANKLIN’S BODY;
TRIAL COUNSEL FAILED TO CALL THE VICTIM’S
STEP-FATHER’S ROOMMATE TO FURTHER ATTACK
THE VICTIM’S CREDIBILITY.

2.

APPELLATE COUNSEL FAILED TO PURSUE VALID
LEGAL ISSUES ON DIRECT APPEAL AND FAILED
TO CONSULT WITH FRANKLIN IN ORDER TO
FRAME AND POTENTIALLY INCLUDE THE ISSUES
THAT FRANKLIN BELIEVED APPROPRIATE.

21
22
23
24
25
26
27

Ex. 99. On March 19, 2012, the State’s Opposition to Defendant’s Supplemental Petition

28

for Writ of Habeas was filed. Ex. 100.
9

APP. 035

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 10 of 23

1

On April 11, 2012, an evidentiary hearing was held Ex. 1 at 115. Franklin was not

2

present for this hearing, and no witnesses were called. Id. Defense counsel, though did

3

present the affidavit of Marcy Valle. Id.; Ex. 101. On April 30, 2012, the Findings of Fact,

4

Conclusions of Law and Order was filed. Ex. 106.

5

On May 1, 2012, Franklin’s Notice of Appeal was filed. Ex. 107. On June 22, 2012,

6

the Nevada Supreme Court issued an Order of Limited Remand for the appointment of

7

appellate counsel. Ex. 110. On July 18, 2012, the district court confirmed Attorney

8

Stephanie Kice as appellate counsel. Ex. 1 at 116.

9
10
11

On March 4, 2013, Attorney Kice filed Franklin’s Opening Brief in the Nevada
Supreme Court. Ex. 115. The following arguments were raised:
I.

12

THE DISTRICT COURT ERRED BY NOT GRANTING MR.
FRANKLIN A FULL AND FAIR EVIDENTIARY HEARING ON THE
ISSUES PRESENTED IN THE POST-CONVICTION WRIT OF
HABEAS CORPUS AND THE SUPPLEMENT.

13
A.

The Merits of the Factual Dispute Were Not Resolved in
the State Court Hearing and the Fact-Finding Procedure
Employed by the State Was Not Adequate to Afford a
Full and Fair Hearing.

B.

The Fact-Finding Procedure Employed By the State Was
Inadequate and The Material Facts Were Not
Sufficiently Developed in the State Court Hearing.

14
15
16
17
18

Id. On May 6, 2013, Respondent’s Answering Brief was filed. Ex. 116. No Reply Brief was

19

filed on Franklin’s behalf. On October 17, 2013, the Nevada Supreme Court issued an

20

unpublished Order of Affirmance. Ex. 117. On November 14, 2013, Remittitur issued.

21

Ex. 118.

22

D.

Federal Court – 28 U.S.C. § 2254 Federal Habeas
Proceedings

23
24

On November 4, 2013, Franklin’s proper person Petition for a Writ of Habeas

25

Corpus Pursuant to 28 U.S.C. § 2254 by a Person in State Custody (Not Sentenced to

26

Death) was filed in this Court. CR 1. On November 18, 2013, Franklin’s Application to

27

Proceed In Forma Pauperis, along with supporting documents, and Motion for

28

Appointment of Counsel were filed. CR 3-4. On June 10, 2014, this Court granted
10

APP. 036

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 11 of 23

1

Franklin’s Motion for Appointment of Counsel. CR 8. On July 10, 2014, Assistant Federal

2

Public Defender Ryan Norwood filed his Notice of Representation. CR 12. On August 28,

3

2014, Assistant Federal Public Defender T. Kenneth Lee filed notice with this Court that

4

he would be replacing Assistant Federal Public Defender Norwood as Franklin’s counsel.

5

CR 13.

6
7

This Amended Petition follows.
II.

GROUNDS FOR RELIEF

8

GROUND ONE

9
10

The failure of the court to State to give a limiting instruction prior
to testimony of previous “bad acts” was prejudicial and requires
reversal.2

11

Statement of Exhaustion: This claim was presented to, and decided upon by the

12

Nevada Supreme Court on direct appeal. See Exs. 76, 80.

13

Statement in Support of Claim: On June 5, 2007, just prior to the

14

commencement of trial, the State filed in open court an Amended Information, in which

15

Franklin was charged with seven (7) counts of lewdness with a child, LA, under the age

16

of fourteen. Ex. 47; Ex. 48, Tr.6/5/07.

17

As part of its case in chief ,the State presented the testimony of MM, who the State

18

knew would testify about Franklin’s prior bad acts. Yet, at no time prior to MM’s

19

testimony did the State request, nor did the trial court sua sponte give a prior bad acts

20

limiting instruction to the jury. See, e.g., Ex. 50, Tr.6/7/07 at 141, 171; see also Tavares,

21

30 P.3d at 1132.

22
23
24
25
26
27
28

2

Undersigned counsel believes a scrivener’s error occurred. Based on the argument
articulated by appellate counsel, undersigned counsel believes that appellate counsel
meant the following to be the correct ground for relief:
The failure of the court to give a limiting instruction prior to the
testimony of previous “bad acts,” or the State to request such an
instruction, was prejudicial and requires reversal.
See Ex. 76 at 7 (citing Tavares v. State, 30 P.3d 1128, 1132 (Nev. 2001) (finding “that the
prosecutor shall henceforth have the duty to request that the jury be instructed on the
limited use of prior bad act evidence [and that] when the prosecutor fails to request the
instruction, the district court should raise the issue sua sponte”).
11

APP. 037

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 12 of 23

1

MM testified that in 1997, when he was fourteen (14), and living in Houston, Texas,

2

he met Franklin in a gay online chat room and that the two of them engaged in private

3

chat sessions. See Ex. 50, Tr.6/7/07 at 141-42, 144. MM told the jury:

4

1.

That at some point his discussions with Franklin became sexually
graphic and that the two of them would discuss what they would like
to do to each other. Id. at 146, 178-79.

2.

That prior to Franklin coming to visit him in Houston, he told
Franklin that he was only thirteen years old and that Franklin did
not have a problem with his age. Id. at 148-49.

3.

That when Franklin came to Houston, Franklin took him to
Franklin’s cousin’s apartment where Franklin kissed him, “touched
him on [his] neck[,] chest and . . . penis.” Id. at 151-52.

10

4.

That he consented to this contact with Franklin. Id. at 152.

11

5.

That the two of them performed oral sex on each other and that
Franklin penetrated him anally. Id. at 153.

5
6
7
8
9

12
13

Finally, MM told the jury that as a result of what happened between him and Franklin,

14

he was hospitalized for mental health issues. Id. at 156.

15

The failure to provide a limiting instruction prior to MM’s testimony left the jury

16

without any guidance. For example, since it was not explained to the jury, the jury had

17

not context and could not have ascertained the importance of MM’s testimony. In fact, the

18

jury could conclude that Franklin was undergoing trial on two (2) separate incidents and

19

was charged with having sex with two (2) minors. In essence, the evidence was in effect

20

doubled against Franklin in the minds of the jurors. At least with a limiting instruction

21

at the instant prior to MM’s testimony the jury would have realized that MM’s testimony

22

was not part of the charges.

23

The bottom line is that the admission of this prior bad acts evidence without giving

24

a limiting instruction prior to its admission was highly prejudicial and unduly influenced

25

the jury to convict Franklin because he is a “bad person.” See, e.g., Tavares, 30 P.3d at

26

730; see also id. at 732 (citing Kotteakos v. United States, 328 U.S. 750 (1946)). Any

27

contrary decision by a state court would be contrary to, or an unreasonable application of,

28

clearly established federal law, and/or would involve an unreasonable determination of
12

APP. 038

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 13 of 23

1

facts. See 28 U.S.C. § 2254(d)(1) and (2).

2

GROUND TWO

3
4

Franklin was denied his right to the effective assistance of counsel
under the Sixth and Fourteenth Amendments to the United States
Constitution.

5

The Sixth and Fourteenth Amendments guarantee the accused the right to counsel

6

at trial. However, the right to counsel encompasses more than a warm body sitting next

7

to the accused; the right entails the right to effective assistance of counsel. See Strickland

8

v. Washington, 466 U.S. 668 (1984). To establish a claim of ineffective assistance of

9

counsel, a petitioner must show: (1) that counsel’s performance was unreasonable; and (2)

10

there “is a reasonable probability that, but for counsel’s unprofessional errors, the result

11

would have been different.” Id. at 694. “A reasonable probability is a probability

12

sufficient to undermine the confidence in the outcome.” Id.

13
14

Applying the Strickland standard, Franklin can demonstrate he was denied his
Constitutional right to the effective assistance of counsel.

15
16

A.

Trial counsel was ineffective for failing to impeach the alleged victim by
asking him to describe identifying marks on Franklin’s body.

17

Statement of Exhaustion: This claim was presented to, and decided upon by, the

18

Nevada Supreme Court on appeal from the denial of the post-conviction petition. Ex. 115,

19

117.

20

Statement of the Claim: Counsel is obligated to conduct a thorough and adequate

21

investigation of all aspects of his client’s case. The decision to investigate is not a strategic

22

decision because it is necessary for adequate preparation for trial, including the ability to

23

examine a witness’s credibility, and for generally providing the constitutionally mandated

24

effective assistance of counsel.

25

Here, the State’s case against Franklin rested solely on the testimony of LA. As a

26

result, it was imperative for trial counsel to attack the alleged victim’s credibility by

27

asking him to describe any identifying marks on Franklin’s body; something that would

28

have clearly demonstrated that the alleged sexual involvement between Franklin and LA
13

APP. 039

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 14 of 23

1

did not occur. Had counsel done the requisite investigation, counsel would have known

2

that Franklin has distinctive body markings that could not have escaped the notice of a

3

person involved in a sexual relationship with him, especially if that person was orally

4

copulating him.

5

Had counsel done the requisite investigation mandated by the Constitution, counsel

6

would have been able to cross-examine LA on this point and LA’s credibility would have

7

been decimated. Thus, the failure to conduct this investigation and to cross-examine LA

8

about Franklin’s distinctive body markings was deficient and prejudicial. Any contrary

9

decision by a state court would be contrary to, or an unreasonable application of clearly

10

established federal law, and/or would involve and unreasonable determination of facts.

11

See 28 U.S.C. § 2254(d)(1) and (2). The writ should be granted and Franklin’s convictions

12

and sentence should be vacated.

13
14

B.

Trial counsel was ineffective for failing to call the alleged victim’s stepfather’s roommate to further attack the alleged victim’s credibility.

15

Statement of Exhaustion: This claim was presented to, and decided upon by, the

16

Nevada Supreme Court on appeal from the denial of the post-conviction petition. Ex. 115,

17

117.

18

Statement of the Claim: Counsel is obligated to conduct a thorough and adequate

19

investigation of all aspects of his client’s case. The decision to investigate is not a strategic

20

decision because it is necessary for adequate preparation for trial, including the ability to

21

examine a witness’s credibility, and for generally providing the constitutionally mandated

22

effective assistance of counsel.

23

Here, the State’s case against Franklin rested solely on the testimony of LA. As a

24

result, it was imperative for trial counsel to attack LA’s credibility. For example. LA

25

testified that the first sexual encounter with Franklin took place in his stepfather’s home

26

on a weekday in April, shortly after his birthday at around “10 or 11 in the morning.” Ex.

27

48, Tr.6/5/07 at 76-77, 80. LA further testified that he knew his first contact with Franklin

28

was shortly after his birthday in April of 2003, because it was around the time he was at
14

APP. 040

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 15 of 23

1

home sick for two days. Ex. 49, Tr.6/6/07 at 89-90, 93-94. School records reflect that LA

2

was absent on April 22nd (Tuesday), 23rd (Wednesday), and 30th (Tuesday). LA’s

3

stepfather, Irvin Blake (“Blake”), a Correctional Lieutenant for the State of Nevada

4

Department of Corrections, testified that in April of 2003, his days off were Tuesdays and

5

Wednesday. Ex. 50, Tr.6/7/07 at 199. Blake also testified that after his divorce from LA’s

6

mother, Bruce Strout (“Strout”),3 someone he worked with, became his roommate on or

7

about March of 2003. Id. at 196-97. Strout worked the opposite twelve hour shift and had

8

different days off. Id. at 200.

9

Had counsel done the requisite investigation mandated by the Constitution, counsel

10

would have been able to call Strout, whose testimony would have further negatively

11

affected LA’s credibility regarding his version of events and times that said events took

12

place. See Ex. 101. Thus, the failure to conduct this investigation and to present Strout’s

13

testimony was deficient and prejudicial. Any contrary decision by a state court would be

14

contrary to, or an unreasonable application of clearly established federal law, and/or would

15

involve and unreasonable determination of facts. See 28 U.S.C. § 2254(d)(1) and (2). The

16

writ should be granted and Franklin’s convictions and sentence should be vacated.

17

C.

Trial counsel was ineffective for failing to object Jury Instruction 10.

18

Statement of Exhaustion: This claim was presented to, and decided upon by, the

19

Nevada Supreme Court on appeal from the denial of the post-conviction petition. Ex. 115,

20

117.

21

Statement of the Claim: The court instructed the jury as follows:

22

To constitute the crime charged, there must exist a union or joint
operation of an act forbidden by law and an intent to do the act.

23
24

The intent with which an act s done is shown by the facts and
circumstances surrounding the case.

25

Do not confuse intent with motive. Motive is what prompts a person
to act. Intent refers only to the state of mind with which the act is done.

26
///
27
28

3

Also referred to as Bruce Stroup. See Ex. 101.
15

APP. 041

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 16 of 23

1
2

Motive is not an element of the crime charged and the State is not
required to prove a motive on the part of the Defendant in order to convict.
However, you may consider evidence of motive as a circumstance in the case.

3

Ex. 51, Jury Instruction 10. Trial counsel did not object to this instruction. Ex. 54.

4

Tr.6/8/07 at 14-15.

5

However, motive has absolutely nothing to do with the case nor the charges

6

Franklin faced. It was therefore improper to instruct the jury on motive, when motive is

7

neither an issue, a circumstance of the case, or an element of one of the charges leveled

8

against Franklin. The trial court abused its discretion in instruction the jury on motive.

9

Trial counsel’s failure to challenge this instruction deprived Franklin of his right to the

10

effective assistance of counsel and his right to a fair trial. Any contrary decision by a state

11

court would be contrary to, or an unreasonable application of clearly established federal

12

law, and/or would involve and unreasonable determination of facts. See 28 U.S.C. §

13

2254(d)(1) and (2). The writ should be granted and Franklin’s convictions and sentence

14

should be vacated.

15
D.
17

Trial counsel was ineffective for failing to object to the admission of prior
bad act testimony, which violated Franklin’s constitutional rights to a fair
trial and due process of law under the Fifth, Sixth and Fourteenth
Amendments to the United States Constitution.

18

Statement of Exhaustion: This claim is unexhausted.

19

Statement of the Claim: On May 25, 2004, the State filed a motion, in the trial

20

court, seeking to “ADMIT EVIDENCE OF OTHER ACTS.” Ex. 7. In this motion, the

21

State began by informing the court that Franklin was charged with: sexual assault with

22

a minor under fourteen (14) years of age; lewdness with a child under the age of fourteen

23

(14); statutory sexual seduction; and solicitation of a minor to engage in acts constituting

24

crimes against nature. Id. at 2. The State then went on to describe how Franklin had met

25

LA via a telephone talk line and the alleged results of that meeting. Id. at 2-5. The State

26

then explained that Franklin had “committed similar acts in the past[,]” and then went

27

on to describe how Franklin had met MM via an internet chat room and the results of that

28

meeting. Id. at 5-6. According to the State, the prior bad acts associated with MM should

16

16

APP. 042

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 17 of 23

1
2
3
4
5
6
7

be presented at Franklin’s trial because
In the instant case and in the Texas case, [Franklin] initially
contacted both these young boys, [LA] and [MM], via electronic medium (i.e.,
telephone chat line and computer chat room) and ultimately communicated
extensively with both boys through either private computer or phone
conversations. These communications became very explicit. Both boys were
about the same age. Both boys made it clear to [Franklin], early on in their
contact with him, just how young they were and [Franklin] indicated he had
no problem with their age and continued to communicate with them.
[Franklin] was aware both boys were still attending school and lived with
their parents. [Franklin] made arrangements to communicate and meet with
these boys in a way that their parents would not find out. Upon meeting
with such boys[, Franklin] performed similar acts on both boys (i.e., fellatio).

8
9
10

Id. at 8. On June 24, 2004, the trial court denied this motion. Ex. 13, Tr.6/24/04 at 14-15;
see also Ex. 14 (7/15/04 Order denying State’s Motion).

11

On November 9, 2005, the State filed a Petition for Writ of Mandamus in the

12

Nevada Supreme Court seeking to be allowed to bring in prior bad acts evidence against

13

Franklin. Ex.75 (Appendix to Appellant’s Opening Brief – Petition for Writ of

14

Mandamus).4 The Mandamus recycled the argument the State made to the trial court.

15

See id. at *3, cf. Ex. 7 at 8. On December 27, 2005, Franklin’s Answer to State’s Petition

16

for Writ of Mandamus was filed. Ex. 75 (Appendix to Appellant’s Opening Brief –

17

Defendant’s Answer to State’s Petition for Writ of Mandamus). On July 7, 2006, the

18

Nevada Supreme Court entered its Order allowing the State to bring in prior bad acts

19

evidence against Franklin. Id. at State v. Eighth Judicial Dist., et. al., No. 46253 (Nev.

20

July 7, 2006) (order granting in part and denying in part). The Nevada Supreme Court

21

found the prior bad acts admissible because it is “relevant to show Franklin’s intention for

22

contacting the victim in this case.” Id. at 3.

23

However,“Franklin’s intention for contacting the victim in this case[,]” is irrelevant

24

for two reasons. First, at the time of trial on June 5, 2007, Franklin was no longer

25

charged with solicitation of a minor, which required the State to prove beyond a

26
27
28

4

Undersigned counsel is in the process of obtaining the actual copy of the
documents referred to in Ex. 75. Upon receipt of those documents, undersigned counsel
will supplement Franklin’s Appendix in Support of His First Amended Petition.
17

APP. 043

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 18 of 23

1

reasonable doubt that Franklin “incite[d], entice[d] or solicit[ed] a minor to engage in acts

2

which constitute the infamous crime against nature . . . .” N.R.S. §201.195. See Ex. 5, cf.

3

Ex. 47. Second, the intent to contact the victim, is not an element of lewdness with a child

4

under the age of fourteen. See N.R.S. § 201.230. In fact, the intent element of lewdness

5

focuses on “arousing, appealing to, or gratifying the lusts or passions or sexual desires of

6

th[e] person or th[e] child.” Id. In other words, the “intent” does not focus on contacting

7

the victim to engage in the acts, it focuses on the resulting gratification.

8

Trial counsel’s failure to object to the admission of this prior bad acts evidence was

9

highly prejudicial and unduly influenced the jury to convict Franklin because he is a “bad

10

person.” Trial counsel’s failure to object thus deprived Franklin of his right to the effective

11

assistance of counsel and his right to a fair trial. Any contrary decision by a state court

12

would be contrary to, or an unreasonable application of clearly established federal law,

13

and/or would involve and unreasonable determination of facts. See 28 U.S.C. § 2254(d)(1)

14

and (2). The writ should be granted and Franklin’s convictions and sentence should be

15

vacated.

16

GROUND THREE

17
18

Franklin was denied his right to the effective assistance of appellate
counsel under the Sixth and Fourteenth Amendments to the United
States Constitution.

19

Franklin has a constitutional right to be represented by competence counsel on

20

appeal. Counsel’s representation during Franklin’s direct appeal fell below an objective

21

standard of reasonableness. But for appellate counsel’s errors. Franklin’s direct appeal

22

would have reached a different result.

23
24

A.

Appellate counsel failed to raise the issue that the trial court committed
reversible error by allowing jury instruction number 10 to be submitted.

25

Statement of Exhaustion: This claim was presented to, and decided upon by, the

26

Nevada Supreme Court on appeal from the denial of the post-conviction petition. Ex. 115,

27

117.

28

///
18

APP. 044

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 19 of 23

1

Statement of the Claim: The court instructed the jury as follows:

2

To constitute the crime charged, there must exist a union or joint
operation of an act forbidden by law and an intent to do the act.

3
4

The intent with which an act is done is shown by the facts and
circumstances surrounding the case.

5

Do not confuse intent with motive. Motive is what prompts a person
to act. Intent refers only to the state of mind with which the act is done.

6
Motive is not an element of the crime charged and the State is not
required to prove a motive on the part of the Defendant in order to convict.
However, you may consider evidence of motive as a circumstance in the case.

7
8
9

Ex. 51, Jury Instruction 10.

10

However, motive has absolutely nothing to do with the case nor the charges

11

Franklin faced. It was therefore improper to instruct the jury on motive, when motive is

12

neither an issue, a circumstance of the case, or an element of one of the charges leveled

13

against Franklin. The trial court abused its discretion in instruction the jury on motive

14

and appellate counsel’s failure to raise this issue on appeal deprived Franklin of his right

15

to the effective assistance of counsel on appeal. Any contrary decision by a state court

16

would be contrary to, or an unreasonable application of clearly established federal law,

17

and/or would involve and unreasonable determination of facts. See 28 U.S.C. § 2254(d)(1)

18

and (2). The writ should be granted and Franklin’s convictions and sentence should be

19

vacated.

20
B.
22

Appellate counsel failed to argue that the admission of prior bad act
testimony violated Franklin’s constitutional rights to a fair trial and due
process of law under the Fifth, Sixth and Fourteenth Amendments to the
United States Constitution.

23

Statement of Exhaustion: This claim is unexhausted.

24

Statement of the Claim: On May 25, 2004, the State filed a motion, in the trial

25

court, seeking to “ADMIT EVIDENCE OF OTHER ACTS.” Ex. 7. In this motion, the

26

State began by informing the court that Franklin was charged with: sexual assault with

27

a minor under fourteen (14) years of age; lewdness with a child under the age of fourteen

28

(14); statutory sexual seduction; and solicitation of a minor to engage in acts constituting

21

19

APP. 045

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 20 of 23

1

crimes against nature. Id. at 2. The State then went on to describe how Franklin had met

2

LA via a telephone talk line and the alleged results of that meeting. Id. at 2-5. The State

3

then explained that Franklin had “committed similar acts in the past[,]” and then went

4

on to describe how Franklin had met MM via an internet chat room and the results of that

5

meeting. Id. at 5-6. According to the State, the prior bad acts associated with MM should

6

be presented at Franklin’s trial because

7

13

In the instant case and in the Texas case, [Franklin] initially
contacted both these young boys, [LA] and [MM], via electronic medium (i.e.,
telephone chat line and computer chat room) and ultimately communicated
extensively with both boys through either private computer or phone
conversations. These communications became very explicit. Both boys were
about the same age. Both boys made it clear to [Franklin], early on in their
contact with him, just how young they were and [Franklin] indicated he had
no problem with their age and continued to communicate with them.
[Franklin] was aware both boys were still attending school and lived with
their parents. [Franklin] made arrangements to communicate and meet with
these boys in a way that their parents would not find out. Upon meeting
with such boys[, Franklin] performed similar acts on both boys (i.e., fellatio).

14

Id. at 8. On June 24, 2004, the trial court denied this motion. Ex. 13, Tr.6/24/04 at 14-15;

15

see also Ex.14.

8
9
10
11
12

16

On November 9, 2005, the State filed a Petition for Writ of Mandamus in the

17

Nevada Supreme Court seeking to be allowed to bring in prior bad acts evidence against

18

Franklin. Ex. 75 (Appendix to Appellant’s Opening Brief – Petition for Writ of

19

Mandamus). The Mandamus recycled the argument the State made to the trial court. See

20

id. at *3, cf. Ex. 7 at 8. On December 27, 2005, Franklin’s Answer to State’s Petition for

21

Writ of Mandamus was filed. Ex. 75 (Appendix to Appellant’s Opening Brief – Defendant’s

22

Answer to State’s Petition for Writ of Mandamus). On July 7, 2006, the Nevada Supreme

23

Court entered its Order allowing the State to bring in prior bad acts evidence against

24

Franklin. Id. at State v. Eighth Judicial Dist., et. al., No. 46253 (Nev. July 7, 2006) (order

25

granting in part and denying in part). The Nevada Supreme Court found the prior bad

26

acts admissible because it is “relevant to show Franklin’s intention for contacting the

27

victim in this case.” Id. at 3.

28

///
20

APP. 046

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 21 of 23

1

However,“Franklin’s intention for contacting the victim in this case[,]” is irrelevant

2

for two reasons. First, at the time of trial on June 5, 2007, Franklin was no longer

3

charged with solicitation of a minor, which required the State to prove beyond a

4

reasonable doubt that Franklin “incite[d], entice[d] or solicit[ed] a minor to engage in acts

5

which constitute the infamous crime against nature . . . .” N.R.S. §201.195. See Ex. 5, cf.

6

Ex. 47. Second, the intent to contact the victim, is not an element of lewdness with a child

7

under the age of fourteen. See N.R.S. § 201.230. In fact, the intent element of lewdness

8

focuses on “arousing, appealing to, or gratifying the lusts or passions or sexual desires of

9

th[e] person or th[e] child.” Id. In other words, the “intent” does not focus on contacting

10

the victim to engage in the acts, it focuses on the resulting gratification.

11

Appellate counsel was ineffective for failing to argue the admission of this prior bad

12

acts evidence was highly prejudicial and unduly influenced the jury to convict Franklin

13

because he is a “bad person.” Appellate counsel’s failure to raise this issue deprived

14

Franklin of his right to the effective assistance of appellate counsel. Any contrary decision

15

by a state court would be contrary to, or an unreasonable application of clearly established

16

federal law, and/or would involve and unreasonable determination of facts. See 28 U.S.C.

17

§ 2254(d)(1) and (2). The writ should be granted and Franklin’s convictions and sentence

18

should be vacated.

19

III.

PRAYER FOR RELIEF

20

Accordingly, Franklin respectfully requests that this Court:

21

1.

Issue a writ of habeas corpus to have Franklin brought before the

22

Court so that he may be discharged from his unconstitutional

23

confinement;

24

2.

Conduct an evidentiary hearing at which proof may be offered concerning the

25

allegations in this amended petition and any defenses that may be raised by

26

respondents; and

27

///

28

///
21

APP. 047

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 22 of 23

1
2

3.

Grant such other and further relief as, in the interests of justice, may be
appropriate.

3
4

FEDERAL PUBLIC DEFENDER
DISTRICT OF NEVADA

5
6
7

By:

/s/ T. Kenneth Lee
T. KENNETH LEE
Assistant Federal Public Defender

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
22

APP. 048

Case 3:13-cv-00613-MMD-WGC Document 20 Filed 03/16/15 Page 23 of 23

1

CERTIFICATE OF SERVICE

2
3
4
5
6

The undersigned hereby certifies that she is an employee of the Federal Public Defender for the
District of Nevada and is a person of such age and discretion as to be competent to serve papers.
That on March 16, 2015, she served a true and accurate copy of the foregoing to the United States
District Court, who will e-serve the following addressee:

7
8
9

Thom Gover
Chief Deputy Attorney General
Nevada Attorney General's Office
555 E. Washington Ave., Suite 3900
Las Vegas, NV 89101

10
11
12
/s/ Leianna Jeske
An Employee of the Federal Public Defender,
District of Nevada

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

O:\00 NCH\cases-open\Franklin, Reginald\Pleadings\AP.wpd

28
23

An unpublish d order shall not be regarded as precedent and shall not be cited as legal authority. SCR 123.

Case 3:13-cv-00613-MMD-WGC Document 32-23 Filed 03/17/15 Page 2 of 4

IN THE SUPREME COURT OF THE STATE OF NEVADA
REGINALD FRANKLIN,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

No. 60808

FILED
OCT 17 2013

ORDER OF AFFIRMANCE

This is an appeal from a district court order denying appellant
Reginald Franklin's post-conviction petition for a writ of habeas corpus.
Eighth Judicial District Court, Clark County; Doug Smith, Judge.
Franklin contends that the district court erred by failing to
conduct an evidentiary hearing on his claims of ineffective assistance of
counsel.

To prevail on a claim of ineffective assistance of counsel, a

petitioner must demonstrate that counsels' performance was deficient and
resulted in prejudice. Strickland v. Washington, 466 U.S. 668, 687 (1984);
Kirksey v. State, 112 Nev. 980, 997, 923 P.2d 1102, 1114 (1996) (adopting
the Strickland test). A petitioner is entitled to an evidentiary hearing only
if he asserts specific factual allegations that are not belied or repelled by
the record and that, if true, would entitled him to relief. Nika v. State, 124
Nev. 1272, 1300-01, 198 P.3d 839, 858 (2008). "We review the district
court's determination that a petitioner is not entitled to an evidentiary
hearing for abuse of discretion." Stanley v. Schriro, 598 F.3d 612, 617 (9th
Cir. 2010).
First, Franklin claims that the district court erred by failing to
conduct an evidentiary hearing on his claim that trial counsel was
SUPREME COURT
OF
NEVADA

(0) 1947A

J3-3115Lo

APP. 050

Case 3:13-cv-00613-MMD-WGC Document 32-23 Filed 03/17/15 Page 3 of 4

ineffective for failing to cross-examine the victim about the distinctive
markings on Franklin's body. Franklin argued that these markings were
very noticeable during sexual activity and the victim's inability to describe
them would have "decimated" his credibility. However, the district court
found that trial counsel "extensively and thoroughly cross-examined the
victim," the record on appeal supports the district court's finding, and we
conclude that the record repels Franklin's claim that trial counsel's
performance was deficient in this regard.
Second, Franklin claims that the district court erred by failing
to conduct an evidentiary hearing on his claim that trial counsel was
ineffective for failing to call the victim's stepfather's roommate as a
witness.

Franklin argued that the roommate would have provided

testimony that "negatively affected [the victim's] credibility regarding his
version of events and times that said events took place." The district court
found that "relying on this single witness would not have changed the
outcome of the trial." We conclude that Franklin failed to provide specific
factual allegations tending to demonstrate a reasonable probability that
the outcome of the trial would have been different had this witness been
called to testify.

See Strickland, 466 U.S. at 694 (stating the test for

establishing prejudice in an ineffective-assistance-of-trial-counsel claim).
Third, Franklin claims that the district court erred by failing
to conduct an evidentiary hearing on his claim that appellate counsel was
ineffective. Franklin argued that appellate counsel failed to pursue valid
legal issues on direct appeal and failed to consult with him on issues that
he believed were important. The district court found that Franklin failed
to present any non-frivolous claims that he wanted appellate counsel to
raise or demonstrate that these claims would have been successful on
SUPREME COURT

OF

NEVADA
(0) 1947A

2

Case 3:13-cv-00613-MMD-WGC Document 32-23 Filed 03/17/15 Page 4 of 4

APP. 051

direct appeal.

We conclude that Franklin failed to provide specific

allegations tending show that appellate counsel omitted issues that had a
reasonable probability of success on appeal. See Kirksey, 112 Nev. at 998,
923 P.2d at 1114 (stating the test for establishing prejudice in an
ineffective-assistance-of-appellate-counsel claim).
Having concluded that the district court did not abuse its
discretion by determining that Franklin was not entitled to an evidentiary
hearing on his claims of ineffective assistance of counsel, we
ORDER the judgment of the district court AFFIRMED.

~~

Hardesty

J.

cc:

Hon. Douglas E. Smith, District Judge
The Kice Law Group, LLC
Attorney General/Carson City
Clark County District Attorney
Eighth District Court Clerk

SUPREME COURT

OF
NEVADA

(0) 1947A

~

3

,J.

An unpublish d order shall not be regarded as precedent and shall not be cited as legal authority. SCR 123.

APP. 052

Case 3:13-cv-00613-MMD-WGC Document 29-5 Filed 03/17/15 Page 2 of 6

IN THE SUPREME COURT OF THE STATE OF NEVADA

REGINALD FRANKLIN,
Appellant,
vs.
THE STATE OF NEVADA,
Respondent.

No. 50229

FILED
JUL 2 3 2009
TRACIE K. LINDEMAN
CLERK OF SUPREME COURT

BY

'S-Y~<
DEPUTYCLEFf<

ORDER OF AFFIRMANCE
This is an appeal from a judgment of conviction, pursuant to a
jury verdict, of five counts of lewdness with a child under the age of
fourteen. Eighth Judicial District Court, Clark County; Michael Villani,
Judge. The district court sentenced appellant Reginald Franklin to five
prison terms of 10 years to life, three of which were ordered to run
consecutively.
Franklin contends that two errors by the district court
resulted in prejudice and require reversal of his convictions: the district
court erred by (1) failing to give a limiting instruction prior to the
admission of testimony regarding prior bad acts, and (2) instructing the
jury that the victim's testimony need not be corroborated.
Limiting Instruction
First, Franklin contends that the district court erred by failing
to give a limiting instruction prior to the admission of testimony of prior
bad acts. This court has stated that when admitting evidence of prior bad
acts "a limiting instruction should be given both at the time evidence of
the uncharged bad act is admitted and in the trial court's final charge to
the jury." Tavares v. State, 117 Nev. 725, 733, 30 P.3d 1128, 1133 (2001),
SUPREME COURT
OF

NEVADA

APP. 053

Case 3:13-cv-00613-MMD-WGC Document 29-5 Filed 03/17/15 Page 3 of 6

holding modified by McLellan v. State, 124 Nev. _ , _ , 182 P.3d 106,
111 (2008) (modifying Tavares to allow a defendant to waive the limiting
instruction). The prosecution bears the burden of requesting a limiting
instruction at the time of admittance, although if the prosecution fails to
do so, the court should raise the issue sua sponte. Id. at 731, 30 P.3d at
1132.

The purpose of requiring a limiting instruction at the time of

admittance, and again before deliberation, is to reinforce the purpose for
which the evidence is properly admitted and prevent the jury from
considering the evidence for an impermissible purpose, such as evidence of
bad character and that the accused acted in conformity therewith on the
date in question. See Rhymes v. State, 121 Nev. 17, 23, 107 P.3d 1278,
1282 (2005). The district court's failure to give a limiting instruction prior
to the admission of bad act evidence will be deemed harmless unless the
error "had [a] substantial and injurious effect or influence in determining
the jury's verdict." Tavares, 117 Nev. at 732, 90 P.3d at 1132 (quoting
Kotteakos v. United States, 328 U.S. 750, 776 (1946)).
In the present case, the State produced a witness who testified
that Franklin had communicated with him online when the witness was
thirteen years old, had picked him up from school, and participated in
sexual activity with him.

Franklin had entered into a plea agreement

regarding that incident. 1 The district court did not instruct the jury prior
1This

court previously concluded that the district court erred by
initially determining that this evidence was inadmissible. We held that
the evidence was relevant because it demonstrated Franklin's motive and
intent in contacting the victim in the present case. State v. District Court
(Franklin), Docket No. 46253 (Order Granting Petition in Part and
Denying in Part, July 7, 2006).

SUPREME COURT
OF

NEVADA

(0) l947A

~

2

APP. 054

Case 3:13-cv-00613-MMD-WGC Document 29-5 Filed 03/17/15 Page 4 of 6

to the testimony, but did instruct on the use of the evidence during its
final charge to the jury. This court presumes that the jury followed the
district court's orders and instructions. Leonard v. State, 117 Nev. 53, 66,
17 P.3d 397, 405 (2001).
The district court erred in failing to issue a limiting
instruction prior to the testimony regarding Franklin's prior bad act.
However,

given the evidence presented that supported Franklin's

conviction, we conclude that the error was harmless. The victim testified
that he began communicating with Franklin on a group phone line just
prior to his thirteenth birthday, and that he informed Franklin of his age
and Franklin did not express hesitation with continuing the relationship.
The victim further testified to two separate incidents involving several
sexual acts.

The victim's mother and family friend testified that the

victim confided to them regarding the sexual encounters.
Non-corroboration instruction
Second, Franklin contends that the district court erred when it
instructed the jury that the victim's testimony need not be corroborated
because (1) the non-corroborating evidence instruction only applies to
sexual assault and rape cases, and (2) the victim consented in the sexual
encounter, and was therefore an accomplice to the crime.
As applied to lewdness
Franklin contends that the district court erred by instructing
the jury that the victim's testimony need not be corroborated because such
instruction only applies to sexual assault and rape cases.

We have

repeatedly held that "the uncorroborated testimony of a victim, without
more, is sufficient to uphold a rape [or sexual assault] conviction." Gaxiola
v. State, 121 Nev. 638, 648, 119 P.3d 1225, 1232 (2005); State v. Gomes,
SUPREME COURT
OF
NEVADA

(0) 1947A

~

3

APP. 055

Case 3:13-cv-00613-MMD-WGC Document 29-5 Filed 03/17/15 Page 5 of 6

112 Nev. 1473, 1481, 930 P.2d 701, 706 (1996); Washington v. State, 112
Nev. 1067, 1073, 922 P.2d 547, 551 (1996); Hutchins v. State, 110 Nev.
103, 109, 867 P.2d 1136, 1140 (1994), holding modified on other grounds
by Mendoza v. State, 122 Nev. 267, 275, 130 P.3d 176, 181 (2006).

Although the offense in question in Gaxiola was sexual
assault, the same reasoning would apply to an offense of lewdness with a
child. Both offenses, sexual assault and lewdness with a child, involve
sexual contact that is punishable as a category A felony.

See NRS

200.366(2); NRS 201.230(2). Furthermore, an offense of lewdness with a
child presents the same difficulty in proving that a crime occurred as
presented in sexual assault cases.

Many times the only evidence of a

sexual assault or lewd act with a child is the testimony of the victim. As a
result, like other sexual assault cases, the victim's testimony alone is
sufficient

to

sustain

a

lewdness

conviction

involving

children.

Accordingly, the district court did not err in instructing the jury in this
regard.
Child as accomplice
Franklin contends that because the victim consented in the
sexual conduct, the victim is an accomplice and corroborating evidence is
required when an accomplice testifies.
NRS 175.291(1) states that "[a] conviction shall not be had on
the testimony of an accomplice unless he is corroborated by other
evidence." NRS 175.291(2) states that "[a]n accomplice is hereby defined
as one who is liable to prosecution, for the identical offense charged
against the defendant on trial in the cause in which the testimony of the
accomplice is given."

SUPREME COURT
OF
NEVADA

(0) 1947A

~

4

APP. 056

Case 3:13-cv-00613-MMD-WGC Document 29-5 Filed 03/17/15 Page 6 of 6

In the present case, the minor child could not be prosecuted
for the identical offense of lewdness with a child under the age of 14 as
Franklin was, and thus, the victim does not qualify as an accomplice.
Thus, the victim's testimony was not required to be corroborated and
therefore, the district court did not err in instructing the jury in this
regard.
Having considered Franklin's contentions and determined that
they have no merit, we
ORDER the judgment of conviction AFFIRMED.

J.

~OW?
{/\S
Douglas
(

J.

J.

cc:

Hon. Michael Villani, District Judge
Albright Stoddard Warnick & Albright
Attorney General Catherine Cortez Masto/Carson City
Clark County District Attorney David J. Roger
Eighth District Court Clerk

SUPREME COURT

OF

NEVADA
(0) 1947A

~

5

;' J

•

f~LlED

JOC

. I

,·

•

Case 3:13-cv-00613-MMD-WGC Document 28-6 Filed 03/17/15 Page 2 of 3

I

Aue 15 3 30 PM '07

2
3
4

DISTRICT COURT

5

C~~T

CLARK COUNTY, NEVADA

6
7
8

THE STATE OF NEVADA,
Plaintiff,

9

CASE NO. C198177
10
11
12

-vsDEPT NO. XVII
REGINALD FRANKLIN
#0892112

13

Defendant.

15

JUDGMENT OF CONVICTION

16

(JURY TRIAL)

17

18
19

The Defendant previously entered a plea of not guilty to the crimes of COUNTS

20

1 - 5 - LEWDNESS WITH A CHILD UNDER THE AGE OF 14 (Category A Felony) in

21

violation of NRS 201.230; thereafter, on the 2N° day of August, 2007, the Defendant

22

was present in court for sentencing with his counsel GERALDINE KIRK-HUGHES,

23

ESQ., and good cause appearing,
24

25

THE DEFENDANT IS HEREBY ADJUDGED guilty of said offenses and, in

26

addition to the $25.00 Administrative Assessment Fee, $150.00 DNA Analysis Fee

27

including testing to determine genetic markers, and $7,300.00 Restitution, the

28

Def~R!~TENCED to the Nevada Department of Corrections (NOC) as follows:
AUG 152007
Cl.ERK OF THE COURT

•

APP. 058

•

Case 3:13-cv-00613-MMD-WGC Document 28-6 Filed 03/17/15 Page 3 of 3

AS TO COUNT 1 - to a MAXIMUM of LIFE with a MINIMUM parole eligibility of TEN
2

(10) YEARS; AS TO COUNT 2 - to a MAXIMUM of LIFE with a MINIMUM parole

3

eligibility of TEN (10) YEARS, to run CONSECUTIVE to Count 1; AS TO COUNT 3 - to
4

5

a MAXIMUM of LIFE with a MINIMUM parole eligibility of TEN (10) YEARS, to run

6

CONSECUTIVE to Count 2; AS TO COUNT 4 - to a MAXIMUM of LIFE with a

7

MINIMUM parole eligibility of TEN (10) YEARS, to run CONCURRENT with Count 3;

8

and AS TO COUNT 5 - to a MAXIMUM of LIFE with a MINIMUM parole eligibility of TEN

9

(10) YEARS, to run CONCURRENT with Count 3; with ONE HUNDRED-ONE (101)
10
11

DAYS credit for time served.
FURTHER ORDERED, a SPECIAL SENTENCE of LIFETIME SUPERVISION is

12
13

imposed to commence upon release from any term of imprisonment, probation or

14

parole.
15

16
17

ADDITIONALLY, the Defendant is ORDERED to REGISTER as a sex offender in
accordance with NRS 179D.480 within FORTY-EIGHT (48) HOURS after any release

--+---day of August, 2007.

MICHAEL VILLANI
DISTRICT JUDGE

2

S:\Forms\JOC-Jury 1 CV8f7/2007

